         ACQUISITION OF THE BATTLEFIELD COMBAT
                 IDENTIFICATION SYSTEM


Report No. D-2001-093                   March 30, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACAT                  Acquisition Category
BCIS                  Battlefield Combat Identification System
C4I                   Command, Control, Communications, Computers, and
                        Intelligence
ORD                   Operational Requirements Document
TEMP                  Test and Evaluation Master Plan
TRADOC                Training and Doctrine Command (Army)
                       Office of the Inspector General, DoD
Report No. D-2001-093                                                   March 30, 2001
  (Project No. D2000AE-0210)

       Acquisition of the Battlefield Combat Identification System

                                Executive Summary

Introduction. The Battlefield Combat Identification System (BCIS), an Army
Acquisition Category II program, is a secure question and answer system that performs
active identification of friendly targets to minimize fratricide on the battlefield. The
Army initiated the program to correct battlefield combat identification deficiencies
following Operation Desert Storm. The Army has primarily focused the BCIS on
ground-to-ground vehicle, friend or foe identification and plans to procure 1,169 BCIS
units to equip multiple vehicles in the 4th Infantry Division. The Army procurement
objective is 16,414 BCIS units at an estimated life-cycle cost of $918.5 million through
FY 2025 in FY 1999 dollars.

Objectives. The primary audit objective was to evaluate the overall management of the
BCIS. Because the BCIS was in the engineering and manufacturing development
phase, we evaluated whether management was cost effective in readying the system for
the production phase of the acquisition process. We also evaluated the management
control program as it related to the audit objectives.

Results. The BCIS acquisition strategy and test and evaluation master plan warranted
management attention as indicated in the following paragraphs.

       •   The Army did not have a viable acquisition strategy to acquire the BCIS at
           the completion of the engineering and manufacturing development phase of
           the acquisition process. As a result, the Army obligated about
           $132.4 million in research, development, test and evaluation, and
           procurement funds through FY 2000 and plans to obligate another
           $86.5 million to complete development efforts and produce 1,169 low-rate
           initial production units from FY 2001 through FY 2007 for the 4th Infantry
           Division. However, the Army had not provided $918.5 million of
           procurement and operations and maintenance funds for the BCIS
           procurement objective. Implementing the recommendation to not allow the
           third phase of the low-rate initial production unless the Army provides full
           funding for BCIS production would permit the Army to put $86.5 million of
           remaining funds to better use should the Army determine that the program is
           unaffordable (finding A).

       •   The BCIS did not have an up-to-date and comprehensive test and evaluation
           master plan. Further, the Army lacked funding to test 19 operational
           requirements and did not plan to operationally test a production prototype of
           the system in cold, fog, snow, or rain. Without an updated test and
           evaluation master plan that accurately shows user requirements, testers will
           not fully evaluate the effectiveness of the BCIS in reducing fratricide. As a
           result, the Army has increased the risk of producing a system that will not
           meet the full needs of the user. Also, the milestone decision authority will
           not have sufficient operational test data to assess the readiness of the BCIS to
           enter full-rate production (finding B).
The management control program for the BCIS did not ensure that Army management
periodically reviewed program documents, such as the operational requirements
document and the test and evaluation master plan, to determine whether the documents
were up-to-date and in compliance with Army guidance (Appendix A).

Summary of Recommendations. We recommend that the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology) not allow the BCIS to continue with the
third phase of low-rate initial production until the Army provides full funding for the
production phase of the program and determines that the program is affordable.
Further, we recommend that the Army Training and Doctrine Command System
Manager update and correct identified deficiencies in the BCIS Operational
Requirements Document and that the Director, Operational Test and Evaluation,
designate the BCIS for oversight. We also recommend that the Product Manager,
Combat Identification, update the BCIS Test and Evaluation Master Plan and delay the
in-process review until the Army completes its operational testing.

Management Comments. We received comments from the Deputy for Systems
Management and Horizontal Technology Integration, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology) (the Deputy); the Acting
Director, Operational Test and Evaluation; and the Deputy Assistant Secretary of
Defense (Command, Control, Communications, Intelligence, Surveillance,
Reconnaissance, and Space) (the Deputy Assistant), Office of the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence). The Deputy
nonconcurred with finding A and the associated recommendation to not allow the BCIS
to continue with the third phase of low-rate initial production until the Army provides
full funding. The Deputy also nonconcurred with delaying the in-process review
scheduled for January 2001 until the Army completes its operational testing. However,
the Deputy concurred with finding B and implied that he concurred with the
recommendations to update and correct identified deficiencies in the BCIS Operational
Requirements Document and to update the BCIS Test and Evaluation Master Plan, even
though he did not specifically address those recommendations in his comments. The
Deputy also provided comments and recommended changes to selected statements in the
report. The Acting Director concurred with the recommendation to designate the BCIS
for oversight, which he did in November 2000. Although not required to comment, the
Acting Director concurred with the recommendations addressing the comprehensive test
planning strategy (finding B) and the Deputy Assistant concurred with all the
recommendations in the report except the recommendation to delay the in-process
review scheduled for January 2001 because the Army completed the in-process review
and approved the third phase of BCIS low-rate initial production. A discussion of the
management comments is in the Finding section of the report, and the complete text is
in the Management Comments section.

Audit Response. Because the Military Deputy to the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) approved the BCIS entering into the third
phase of low-rate initial production to procure an additional 1,032 BCIS units, costing
about $43.3 million, without full funding for the program and without determining
whether the program was affordable and fully met the needs of the user to reduce
fratricide, we are redirecting the recommendation to the Under Secretary of Defense
for Acquisition, Technology, and Logistics to ensure that the Army spends funds on
efforts that it is committed to fully funding and that are affordable. Therefore, we
request that the Under Secretary of Defense for Acquisition, Technology, and Logistics
provide comments by May 30, 2001.




                                           ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                              1
     Objectives                                                              2

Finding
     A.   Viable Acquisition Strategy                                        3
     B.   Comprehensive Test Planning Strategy                              11

Appendixes
     A. Audit Process
          Scope and Methodology                                             22
          Management Control Program Review                                 23
          Prior Coverage                                                    24
     B. Definitions of Technical Terms                                      25
     C. Army Acquisition Executive Memorandum                               30
     D. Battlefield Combat Identification System Operational Requirements   32
     E. Audit Response to Army Comments Concerning the Report               44
     F. Report Distribution                                                 57

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                    59
     Director, Operational Test and Evaluation Office of the Secretary of
       Defense                                                              62
     Department of the Army                                                 63
Battlefield Combat Identification System (Source: Office of the Product Manager,
Combat Identification)
Background
        During Operation Desert Storm, the Army experienced 28 fratricide incidents
        that resulted in 35 killed in action and 72 wounded in action. Of those
        incidents, 61 percent resulted from ground-to-ground engagements. The Army
        initiated the Battlefield Combat Identification System (BCIS), an Army
        Acquisition Category II program, in April 1993, to correct battlefield combat
        identification deficiencies following Operation Desert Storm. The BCIS is a
        secure question and answer system that performs active identification of friendly
        targets to minimize fratricide on the battlefield. The BCIS goal is to reduce the
        risk of fratricide by identifying BCIS-equipped targets under all battlefield
        conditions, including degraded environmental conditions, such as smoke,
        darkness, rain, dust and fog. The Army plans to equip “shooter” platforms,
        such as tanks and other fighting vehicles, with BCIS units to determine whether
        suspect platforms are friend or unknown1 and provide the same information to
        other shooters. When the shooter activates the shooter platform’s laser range
        finder or interrogation button, the action automatically triggers the BCIS
        interrogation, which sends an encrypted, directional query message to the
        targeted vehicle. If the targeted vehicle is friendly and equipped with BCIS, its
        transponder answers with an encrypted, omni-directional friend message. If the
        BCIS calculated distance to the target is approximately the same as the distance
        estimated by the laser range finder, then a friend light illuminates in the
        gunner’s sight, supplemented by voice confirmation. If the BCIS-calculated
        distance is substantially different from the laser range finder-calculated distance,
        then BCIS gives the shooter friend-at-range visual and audio signals, indicating
        that a friend is at the range calculated by BCIS, but may not be the target in the
        gunner’s sight. If the shooter receives an improperly encrypted answer or no
        answer, it interprets the action as an unknown response and continues to engage.
        The Army also plans to equip select nonshooter platforms such as high mobility
        multi-purpose wheeled vehicles and armored personnel carriers with BCIS
        transponder units. TRW Incorporated is the prime contractor for the BCIS.
        Appendix B provides definitions of technical terms used in this report.

        The Army assigned overall BCIS management to the Program Executive Office,
        Intelligence, Electronic Warfare, and Sensors. The Product Manager, Combat
        Identification, is responsible for day-to-day management of the program and is
        the materiel developer for the BCIS, with overall responsibility for
        development, test, production, integration, and deployment of the system. The
        Army Acquisition Executive2 is the milestone decision authority for the BCIS.
        The Army Training and Doctrine Command (TRADOC) System Manager
        represents the user and defined the BCIS operational requirements. The Army
        has primarily focused the BCIS on ground-to-ground vehicle, friend or unknown
        identification and plans to procure 1,169 BCIS units to equip multiple vehicles
        in the 4th Infantry Division at Fort Hood, Texas. The Army projects the life-
        cycle cost for the 1,169 BCIS units through FY 2025 to be about $129.5 million

1
 According to the Product Manager, Combat Identification, BCIS does not positively identify foe
platforms.
2
The Army Acquisition Executive is the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology).

                                                   1
     in FY 1999 dollars. The Army procurement objective is 16,414 units, which
     represents fielding BCIS to the Active Components and training bases with a
     projected life-cycle cost of about $918.5 million. The Army acquisition
     objective is 43,762 units to field the BCIS to the Active Components, National
     Guard, Army Reserve, and training bases.

Objectives
     The primary audit objective was to evaluate the overall management of the
     BCIS. Because the BCIS was in the engineering and manufacturing
     development phase, we evaluated whether management was cost effective in
     readying the system for the production phase of the acquisition process. We
     also evaluated the management control program as it related to the audit
     objectives. See Appendix A for a discussion of the audit scope and
     methodology, the review of the management control program, and prior
     coverage related to the audit objectives.




                                        2
                A. Viable Acquisition Strategy
                The Army did not have a viable acquisition strategy to acquire the BCIS
                at the completion of the engineering and manufacturing development
                phase of the acquisition process. This condition occurred because the
                milestone decision authority allowed the BCIS to enter low-rate initial
                production without determining whether the program was affordable and
                without ensuring that the Army had fully funded the program. As a
                result, the Army obligated about $132.4 million in research,
                development, test and evaluation, and procurement funds through
                FY 2000 and plans to obligate another $86.5 million to complete
                development efforts and produce 1,169 low-rate initial production units
                from FY 2001 through FY 2007 for the 4th Infantry Division.
                However, the Army had not provided $918.5 million of procurement and
                operations and maintenance funds to acquire and support the BCIS
                procurement objective of 16,414 units.

Full-Funding and Acquisition Strategy Policy
        Full-Funding Policy. DoD Regulation 5000.2-R, “Mandatory Procedures for
        Major Defense Acquisition Programs (MDAPs) and Major Automated
        Information System (MAIS) Acquisition Programs,” Change 4, May 11, 1999;3
        Army Regulation 70-1, “Research, Development, and Acquisition, Army
        Acquisition Policy,” January 15, 1998; and Army Pamphlet 70-3, “Research,
        Development, and Acquisition -- Army Acquisition Procedures,” July 15, 1999,
        define requirements for full funding of acquisition programs at program
        initiation.

                DoD Regulation. DoD Regulation 5000.2-R requires the milestone
        decision authority to assess affordability at each milestone decision point
        beginning with program initiation. Further, the Regulation requires that the
        milestone decision authority not approve an acquisition program to proceed
        beyond program initiation unless sufficient resources, including manpower, are
        programmed in the most recently approved Future Years Defense Program, or
        will be programmed in the next Program Objectives Memorandum, Budget
        Estimate Submission, or President’s Budget.

               Army Regulation. Army Regulation 70-1 requires the Army to follow
        guidance and procedures contained in DoD Regulation 5000.2-R for Acquisition
        Categories II through IV programs.

                Army Pamphlet. Army Pamphlet 70-3 supplements DoD
        Regulation 5000.2-R and requires that full funding, which is the total cost for
        developing, procuring, and sustaining an acquisition program, be shown in the
        most recent Future Years Defense Program for all programs, regardless of
        acquisition category.


3
 DoD initially issued DoD Regulation 5000.2-R on March 15, 1996, which included the full-funding
guidance and acquisition strategy guidance, discussed later.

                                                 3
        Acquisition Strategy Policy. DoD Regulation 5000.2-R requires the program
        manager to develop and document an acquisition strategy that will serve as the
        roadmap for program execution from program initiation through post-production
        support and includes the critical events that govern the management of the
        program. The primary goal of the acquisition strategy is to minimize the time
        and cost of satisfying an identified, validated need consistent with common
        sense and sound business practices.

        Low-Rate Initial Production. DoD Regulation 5000.2-R states that low-rate
        initial production quantities for all acquisition categories should be minimized.
        Further, the Regulation states that the purpose of low-rate initial production is to
        produce the minimum quantity necessary to provide production configured or
        representative articles for operational tests; establish an initial production base
        for the system; and permit an orderly increase in the production rate for the
        system, sufficient to lead to full-rate production upon successful completion of
        operational testing.

Engineering and Manufacturing Development Phase
  Continues Without Procurement Funds
        The Army did not have a viable acquisition strategy to acquire the BCIS. This
        condition occurred because the milestone decision authority allowed the BCIS to
        enter low-rate initial production without determining whether the program was
        affordable and without ensuring that the Army had fully funded the program.

        During the engineering and manufacturing development milestone decision in
        July 1993, the Army Acquisition Executive approved the “Acquisition Strategy
        Report for the Battlefield Combat Identification System (BCIS),” that focused
        on the development, procurement, and integration of a near-term system.4 The
        BCIS Acquisition Strategy covered the program structure and acquisition
        approach. In addition, the Army Acquisition Executive approved a low-rate
        initial production quantity of 1,660 units contingent on whether such a quantity
        was necessary to support an initial production base for the system, and permit
        an orderly increase in the production rate for the system, sufficient to lead to
        full-rate production. On June 4, 1999, after conducting an affordability analysis
        of the BCIS for the low-rate initial production decision, the Deputy Director,
        Army Program Analysis and Evaluation Directorate, stated that BCIS was
        unaffordable for low-rate initial production and that he could not support
        incremental funding of the BCIS for only the 4th Infantry Division. The Deputy
        Director advised the Army Systems Acquisition Review Council (the Council)
        that the BCIS had a funding shortfall of $2 million for procurement of the
        low-rate initial production units from FY 2000 through FY 2002 and a shortfall
        of $183 million for full-rate production from FY 2000 through FY 2005.
        Further, the Deputy Director stated that the BCIS had a funding shortfall of
        $3.7 million from FY 2002 through FY 2005 for operations and maintenance,


4
 The near-term system is a nonpermanent, easily attached and removed BCIS unit that provides positive
target identification for ground-to-ground and air-to-ground engagements of BCIS-equipped vehicles.

                                                  4
including reparables, consumables, post-production software support, and
replacement training. Concerning the low-rate initial production decision, the
Deputy Director stated that:

       •   the Army must provide the operations and maintenance funding
           before the low-rate initial production decision, and

       •   he would support a low-rate initial production decision if the Army
           funded all identified funding shortfalls in the Future Years Defense
           Program and made a commitment to fully fund the program to the
           approved Army Procurement Objective in the Budget Estimate
           Submission.

On June 30, 1999, the Program Executive Officer, Intelligence, Electronic
Warfare and Sensors, briefed the Council, the Assistant Vice Chief of Staff of
the Army, and the Military Deputy to the Army Acquisition Executive on the
readiness of the BCIS to enter low-rate initial production. Subsequently, the
Council recommended a limited, three-phase procurement of 1,169 BCIS units
to equip the 4th Infantry Division.

On July 14, 1999, the Product Manager, Combat Identification, issued the
“Modified Integrated Program Summary for the Battlefield Combat
Identification System Low Rate Initial Production Decision,” which revised the
BCIS acquisition strategy to encompass a phased approach based on the Council
direction and the availability of funding. The Modified Integrated Program
Summary revised the BCIS Acquisition Strategy into three phases:

       •   low-rate initial production to procure 1,169 BCIS units for fielding to
           the 4th Infantry Division,

       •   full-rate production to field 15,245 BCIS units to the meet the Army
           Procurement Objective of 16,414 BCIS units, and

       •   a pre-planned product improvement to shift the BCIS frequency band
           to comply with a yet to be approved North Atlantic Treaty
           Organization Standardization Agreement.

On July 29, 1999, the Army Acquisition Executive further defined the low-rate
initial production phase of the BCIS Acquisition Strategy and approved a
limited, three-phase low-rate initial production of 1,169 BCIS units to equip the
4th Infantry Division.

       •   The first phase, in FY 1999, consisted of 10 units to support
           developmental testing.

       •   The second phase, in FY 2000, consisted of 127 units to support an
           initial operational test and evaluation.

       •   The third phase, from FY 2001 through FY 2007, consists of plans
           to procure an additional 1,032 units for the 4th Infantry Division.



                                    5
Entry into the third phase, FY 2001 and beyond, was contingent on an
in-process review chaired by the Military Deputy to the Army Acquisition
Executive to verify system performance and reliability.

On October 7, 1999, the Army Acquisition Executive issued a letter to the
Under Secretary of Defense for Acquisition, Technology, and Logistics stating
that the Army was going forward with a three-phase procurement of 1,169 BCIS
units without full funding for the Army procurement objective of 16,414 units
(see Appendix C). The Army Acquisition Executive also stated that to disrupt
planning or execution of other Army programs to fully fund the BCIS was not
practical at that time in view of the uncertainties about BCIS reliability and
interaction with situational awareness. He concluded that, after the Army
completed its modeling and testing efforts and obtained some experience with
BCIS in the 4th Infantry Division, the Army would be in a better position to
decide on future procurement of the BCIS. However, if the Army decided to
increase the BCIS procurement, it would be with a restructured acquisition
program baseline and adequate funding.

For the in-process review, the Military Deputy to the Army Acquisition
Executive was to determine whether the BCIS should continue with the
third phase of low-rate initial production. At this in-process review, the
Program Executive Officer, Intelligence, Electronic Warfare and Sensors, and
the Product Manager, Combat Identification, were to:

       •   verify that BCIS meets system performance and reliability
           requirements;

       •   quantify through accredited modeling and simulation that BCIS
           reduces fratricide beyond that which situational awareness provides;

       •   present a comprehensive and coordinated plan for testing and
           integrating BCIS on host platforms; and

       •   present a comprehensive and coordinated plan for fielding BCIS with
           applicable training devices.

At the in-process review, the Product Manager presented field test data from a
reliability development growth test to verify system performance and reliability.
The field test data were primarily based on some modeling and simulation data
and pre-production prototype demonstrations and tests. However, the data
available did not adequately verify system performance and reliability of the
production-prototype BCIS because of the lack of a current and comprehensive
test and evaluation master plan (TEMP), as discussed in finding B. Further,
this field test data is preliminary because the reliability development growth test
will not conclude until April 2001. However, on February 20, 2001, the
Military Deputy concluded that the BCIS had met the requirements for the
in-process review based on the presentations by the Product Manager, Combat
Identification, and the representatives from the user community, the independent
test community, the training community, the program offices for major
platforms that will receive the BCIS, and the unanimous recommendation by the
Army Headquarters Overarching Integrated Product Team. Consequently, the


                                     6
     Military Deputy granted approval to implement the third phase of the low-rate
     initial production buy of an additional 1,032 units for the 4th Infantry Division
     predicated upon the completion of the reliability development growth test.

Effect of Continuing the Battlefield Combat Identification
  System Without Procurement Funds
     Without a viable acquisition strategy for the BCIS, the Army had obligated
     about $132.4 million in research, development, test and evaluation and
     procurement funds for the BCIS through FY 2000, and plans to obligate another
     $86.5 million to complete the development effort in FYs 2001 through 2007 for
     the 4th Infantry Division. However, the Army had not obtained procurement
     and operations and maintenance funds necessary to acquire and support the
     BCIS procurement objective of 16,414 units or for the Army acquisition
     objective of 43,762 units.

     Efforts Planned to Complete Development. The Army provided funding for
     the BCIS in the Army Research, Development, Test and Evaluation Budget Item
     Justification (R-2 Exhibit) and the Army Budget Item Justification Sheet (P-40
     Exhibit). In the R-2 Exhibit, February 2000, Program Element
     No. 064817A/D482 for the Ground Combat Identification project shows
     research, development, test, and evaluation funding for the BCIS. For
     FY 2001, the R-2 Exhibits shows estimated funding of $2.4 million for the
     following efforts:

            •   complete host platform design and development effort for selected
                vehicle types in the 4th Infantry Division,

            •   provide technical support for the initial operational test and
                evaluation, and

            •   develop the North Atlantic Treaty Organization Standardization
                Agreement for combat identification.

     However, the R-2 Exhibit does not include funding for BCIS from FY 2002
     through FY 2005. The R-2 Exhibit, September 2000, also shows $2.4 million
     in research, development, test, and evaluation funding for the BCIS. However,
     the Exhibit does not identify the FY 2001 efforts and also does not include
     funding for the BCIS beyond FY 2001. Therefore, if the BCIS requires
     additional design improvements and testing, the funding will not be available.

     In the P-40 Exhibit, September 2000, the Army requested procurement funds,
     totaling $61.8 million, from FY 2001 through FY 2007, to acquire 829 low-rate
     initial production BCIS units. The Army plans to use funding from the Abrams
     Tank and Bradley Fighting Vehicle programs to acquire the remaining quantities
     to achieve the low-rate initial production buy of 1,169 BCIS units, according to
     the Budget Production Schedule (P-21 Exhibit), September 2000. However, the
     P-21 and P-40 Exhibits do not show sufficient funding from FY 2006 through
     FY 2007 to acquire the Army procurement objective of 16,414 BCIS units. The


                                          7
        P-21 shows no funding beyond FY 2005 to equip Abrams Tanks and Bradley
        Fighting Vehicles with BCIS units and the P-40 shows funding for limited buys
        of 55 and 62 BCIS units for FYs 2006 and 2007, respectively.

        Efforts to Equip the Warfighter. The Office of the Deputy Chief of Staff for
        Operations and Plans identified an Army procurement objective of 16,414 units.
        The Army funded the BCIS to procure 1,169 low-rate initial production units
        for the 4th Infantry Division at an average BCIS unit cost of about $42,000,
        according to the Product Manager, Combat Identification. The Army
        procurement objective of 16,414 units does not represent fielding BCIS to all
        Army vehicles expected to operate forward of the brigade support area, and the
        1,169 low-rate initial production units are of limited value to the warfighter
        because the 4th Infantry Division, as the Army’s First Digitized Division and
        Experimental Force, would not be the first heavy mechanized division to be
        deployed in a conflict. The 4th Infantry Division would be only one of many
        Army and allied forces5 operating in the theater-of-action. Consequently, the
        availability of the BCIS for the 4th Infantry Division alone will not result in a
        significant reduction in the number of fratricide incidents that may occur
        because the 4th Infantry Division will be limited to identifying its own vehicles
        as friends and will not be able to differentiate whether other vehicles, including
        other Army and allied vehicles, in the theater-of-action are friend or unknown.

        Funds Put to Better Use. By Army management not allowing the BCIS to
        continue with the third phase of low-rate initial production until it decides to
        fully fund the BCIS at the approved Army procurement objective, the Army
        could put the remaining $86.5 million6 of research, development, test and
        evaluation and procurement funds to better use. The Army Cost Position as of
        August 6, 1999, estimated the total cost to acquire and support the 16,414 units
        identified in the Army procurement objective as $918.5 million. To acquire the
        43,762 units needed to field BCIS to all Army units will cost about $1.8 billion.7
        Given the existing funding constraints, the unit cost, and the Army’s estimate
        that 43,762 units are needed to field BCIS to all Army units, it is unlikely that
        the Army will have sufficient funding to acquire the quantity needed to protect
        soldiers from friendly ground fire. If the Army does not fully fund the BCIS for
        production, and continues to acquire low-rate initial production BCIS units to
        equip the 4th Infantry Division under the existing protracted fielding plan, Army
        warfighters will receive minimal benefit in the reduction of fratricide attributed
        to BCIS.



5
Allied countries will procure their own combat identification systems based on the North Atlantic Treaty
Organization Standardization Agreement for combat identification, according to the Product Manager,
Combat Identification.
6
 The Army planned a total of $2.4 million of research, development, test and evaluation funding for
BCIS in FY 2001 and $84.1 million of procurement funding for BCIS in FYs 2001 through 2007. The
procurement funding includes $19 million in FY 2001, $16.2 million in FY 2002, $16.1 million in
FY 2003, $16.6 million in FY 2004, $5.9 million in FY 2005, $5.1 million in FY 2006, and
$5.2 million in FY 2007.
7
We calculated the $1.8 billion cost to acquire 43,762 units by using a unit cost of $42,000, which the
Office of the Product Manager, Combat Identification, provided.

                                                    8
Management Comments on the Finding and Audit Responses
    Summaries of management comments on the finding and our responses are in
    Appendix E.

Recommendation, Management Comments, and Audit
  Response
    Redirected Recommendation. In the draft report, we directed the following
    recommendation to the Assistant Secretary of the Army (Acquisition, Logistics,
    and Technology). We are redirecting the recommendation to the Under
    Secretary of Defense for Acquisition, Technology, and Logistics to ensure that
    the Army spends funds on efforts that it is committed to fully funding and that it
    has determined are affordable. We redirected the recommendation because the
    Military Deputy to the Assistant Secretary of the Army (Acquisition, Logistics,
    and Technology) approved the BCIS entering the third phase of low-rate initial
    production to procure an additional 1,032 BCIS units, costing about
    $43.3 million, without full funding for the program and without determining
    whether the program is affordable and fully met the needs of the user to reduce
    fratricide.

    A. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics direct the Army to discontinue further funding of
    the Battlefield Combat Identification System until the Army provides full
    funding for the production phase of the program to meet user requirements
    and determines that the program is affordable.

    Army Comments. The Deputy for Systems Management and Horizontal
    Technology Integration, Office of the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology), nonconcurred, stating that the Army
    Systems Acquisition Review Council and the milestone decision authority had
    considered the risks associated with continuing the third phase of the low-rate
    initial production and directed appropriate management actions to mitigate those
    risks. Further, the Deputy stated that the Army completed necessary testing to
    provide the Military Deputy to the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology) with sufficient data to make an informed assessment
    to proceed into the third phase of the low-rate initial production. For the
    complete text of the Deputy’s comments, see the Management Comments
    section of the report.

    Deputy Assistant Secretary of Defense (Command, Control,
    Communications, Intelligence, Surveillance, Reconnaissance, and Space)
    Comments. Although not required to comment, the Deputy Assistant agreed
    with the recommendation. For the complete text of the Deputy Assistant’s
    comments, see the Management Comments section of the report.

    Audit Response. The Army comments were not responsive. The Military
    Deputy to the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) should not have approved entrance into the third phase of the

                                        9
low-rate initial production without the Army programming full funding for the
BCIS. DoD Regulation 5000.2-R requires that the milestone decision authority
not approve an acquisition program proceeding beyond program initiation unless
sufficient resources, including staffing, are programmed in the most recently
approved Future Years Defense Program or will be programmed in the next
Program Objectives Memorandum, Budget Estimate Submission, or President’s
Budget. Further, Army Pamphlet 70-3 supplements DoD Regulation 5000.2-R
and requires that full funding, which is the total cost for developing, procuring,
and sustaining an acquisition program, be shown in the most recent Future
Years Defense Program for all programs, regardless of acquisition category.
Unless the Army fully funds the BCIS for procurement in the Future Years
Defense Program to meet user requirements, it should discontinue further
funding. Therefore, we request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics comment on this recommendation and
direct the Army to spend its limited funds on programs that meet its funding
priorities for full funding and procurement.




                                    10
            B. Comprehensive Test Planning
               Strategy
            The BCIS did not have a current and comprehensive TEMP. Further,
            the Army lacked funding to test 19 operational requirements and did not
            plan to operationally test a production prototype of the system in cold,
            fog, snow, or rain. The TEMP, approved July 1993, was not suitable
            for testing the BCIS for the following reasons.

                   •   The TRADOC System Manager did not update the
                       operational requirements document (ORD) in accordance with
                       new guidance requiring key performance parameters.

                   •   The Office of the Joint Chiefs of Staff, Director for
                       Command, Control, Communications, and Computers, did
                       not certify the ORD for interoperability.

                   •   The BCIS Product Manager did not ensure that planned
                       operational tests addressed all BCIS operational requirements.
                       Specifically, planned tests did not address requirements for
                       operating in all environments, Service compatibility, system
                       reliability and supportability, platform vulnerability to
                       detection, and situational awareness linkage.

            Without an updated TEMP that accurately shows user requirements,
            testers will not fully evaluate the effectiveness of the BCIS in reducing
            fratricide. As a result, the Army has increased the risk of producing a
            system that will not meet the full needs of the user. Also, the milestone
            decision authority will not have sufficient operational test data to assess
            the readiness of the BCIS to enter full-rate production.

Operational Requirements, Interoperability, Test and
  Evaluation Policy
     Operational Requirements Policy. DoD Regulation 5000.2-R; Chairman of
     the Joint Chiefs of Staff Instruction 3170.01A, “Requirements Generation
     System,” August 10, 1999; Army Regulation 73-1, “Test and Evaluation
     Policy;” February 27, 1995; and TRADOC Pamphlet 71-9, “Requirements
     Determination,” November 5, 1999, provide policy on operational
     requirements.

             DoD Regulation. DoD Regulation 5000.2-R requires the user or the
     user’s representative to prepare the ORD based on validated needs to address
     mission area deficiencies, evolving threats, and emerging technologies or
     weapon system improvements. Further, the Regulation requires that the
     Military Department Chief of Staff or designated representative approve the
     ORD before each program milestone decision and submit it to the milestone
     decision authority to be used in the preparation of program documentation such
     as program baselines, specifications, and test and evaluation master plans.

                                         11
        Chairman of the Joint Chiefs of Staff Instruction. Chairman of the
Joint Chiefs of Staff Instruction 3170.01A states that key performance
parameters are those system capabilities or characteristics considered essential
for successful mission accomplishment. The Instruction also states that the
ORD should contain eight or less key performance parameters that capture the
parameters needed to reach the overall desired capabilities for the system.
Failure to meet an ORD key performance parameter threshold can be cause for
the system selection to be re-evaluated or the program to be reassessed or
terminated.

       Army Regulation. Army Regulation 73-1 states that the program
manager develops the critical technical parameters to attain the associated
operational requirements in the projected threat environments. These critical
technical parameters must be included in the independent developmental
evaluation or assessment plan and, along with appropriate thresholds, in the
TEMP.

        TRADOC Pamphlet. The TRADOC Pamphlet 71-9 states that changes
to an approved ORD are driven by lessons learned through analysis, testing,
threat, technology, or mission needs and are approved by the Commanding
General, TRADOC. Further, the Pamphlet states that ORD changes should be
made to support a milestone decision review for approval to enter the
engineering and manufacturing development phase and only on an exception
basis for approval to enter the production phase.

Interoperability Policy. DoD Regulation 5000.2-R and Chairman of the Joint
Chiefs of Staff Instruction 6212.01B, “Compatibility, Interoperability,
Integration, and Supportability of Command, Control, Communications,
Computers, Intelligence and Weapon Systems,” May 8, 2000, provide guidance
on interoperability.

        DoD Regulation. DoD Regulation 5000.2-R requires the program
manager to address compatibility, interoperability, and integration key goals for
all acquisition programs and to ensure that these goals are achieved throughout
the acquisition life-cycle for all acquisition programs. Further, the Regulation
requires the Joint Interoperability Test Command to test and certify all
Command, Control, Communications, Computers, and Intelligence (C4I)
systems having joint interoperability requirements before the production
milestone decision. The Director, Defense Information Systems Agency,
through the use of the Joint Interoperability Test Command, is to certify to the
developmental and operational testing organizations and to the Chairman of the
Joint Chiefs of Staff that C4I systems and equipment meet the applicable
requirements for compatibility, interoperability, and integration. The
Regulation further requires program managers to prepare a C4I support plan for
all weapon systems that interface with C4I systems.

        Chairman of the Joint Chiefs of Staff Instruction. Chairman of the
Joint Chiefs of Staff Instruction 6212.01B requires the Director for Command,
Control, Communications, and Computers (J-6) to certify system ORDs before
each milestone, regardless of acquisition category, for conformance with joint
national security systems and interoperability standards. Also, the Director is to
certify that interoperability key performance parameters are derived from

                                    12
           information exchange requirements. Interoperability key performance
           parameters in an ORD define the level of interoperability for the proposed
           system.

           Test and Evaluation Policy. DoD Regulation 5000.2-R and Army
           Pamphlet 73-2, “Test and Evaluation Master Plan Procedures and Guidelines,”
           October 11, 1996, provide policy on test planning requirements.

                   DoD Regulation. DoD Regulation 5000.2-R requires that the TEMP
           document the overall structure and objectives of the test and evaluation
           program. The TEMP provides a framework to generate detailed test and
           evaluation plans for tests that the program office requires before key program
           decision points and identifies developmental and operational tests and
           evaluations needed to support the decisions. Further, the Regulation requires
           the TEMP to correlate program schedules, test management, strategy and
           structure, and required resources to the objectives and thresholds in the ORD.
           For programs designated for Office of Secretary of Defense test and evaluation
           oversight, the Regulation requires the program manager to submit the TEMP to
           the Office of the Director, Operational Test and Evaluation, for review within
           90 days of such designation.

                   Army Pamphlet. Army Pamphlet 73-2 states that program managers
           for programs on the Office of Secretary of Defense test and evaluation oversight
           list must submit updated TEMPs to the Office of the Director, Operational Test
           and Evaluation, 45 days before a milestone review.

Current and Comprehensive Test and Evaluation Master Plan
           The BCIS did not have a current and comprehensive TEMP. The condition
           occurred because the TRADOC System Manager did not update the ORD; the
           Office of the Joint Chiefs of Staff, Director for Command, Control,
           Communications, and Computers, did not certify the ORD for interoperability;
           and the BCIS Product Manager did not ensure that planned tests evaluated and
           addressed all operational requirements in the planned BCIS operating
           environment.

           Operational Requirements Document. The TRADOC System Manager, the
           user representative, had not updated and received certification for the
           operational requirements document (ORD) since the Army approved it in April
           1993. The April 1993 ORD did not contain key performance parameters. The
           user representative stated that he planned to update the ORD by March 20018 to
           comply with the Chairman of the Joint Chief of Staff Instructions 3170.01A and
           6212.01B. In November 2000, after receiving the updated ORD from the user
           representative, the Director for Command, Control, Communications, and
           Computers (J-6) and the Director, Defense Information Systems Agency,
           reviewed the updated ORD and identified deficiencies in the defined
           interoperability requirements for use in determining system performance
           through testing. After the user representative corrects the ORD deficiencies and

8
    In comments to the draft report, the Army stated that it plans to approve the ORD by April 2001.

                                                      13
            resubmits the ORD, the Director for Command, Control, Communications, and
            Computers (J-6) and the Director, Defense Information Systems Agency, will
            again review the updated ORD for certification. After the Directors’
            certification, the Army Chief of Staff or designated representative must approve
            the updated ORD before the production milestone decision in June 2002.

            In response to the draft report, the Army stated in March 2001 that the updated
            ORD includes an interoperability key performance parameter and that the
            TRADOC System Manager has taken action to achieve the required J-6
            certification. However, as of March 2001, the Director for Command, Control,
            Communications, and Computers (J-6) had not certified the ORD for
            interoperability and the TRADOC System Manager had not provided its
            corrections on the ORD. Further, the operational testers must test and evaluate
            the BCIS against the key performance parameters in the updated ORD to assess
            the system’s suitability and effectiveness.

            The new updated ORD, if approved by April 2001, is after the in-process
            review in February 2001 that decided upon further procurement of 1,032 BCIS
            units for the third phase of the low-rate initial production decision, only about
            3 months before the initial operational test and evaluation in the fourth quarter
            of FY 2001, and about 15 months before the full-rate production milestone
            decision planned in June 2002. Consequently, the Army may not be able to
            coordinate and approve the ORD in time to make necessary changes to the test
            plan and in resource requirements to affect the initial operational test and
            evaluation.

            Test and Evaluation Master Plan. The Deputy Under Secretary of the Army
            for Operational Research approved the TEMP for the BCIS in July 1993 at the
            engineering and manufacturing development milestone decision. The July 1993
            TEMP does not include planned testing for the upcoming FY 2001 initial
            operational test and evaluation and future follow-on operational tests. However,
            even though the BCIS Product Office does not have an updated ORD, its Test
            and Evaluation Working Integrated Product Team9 has been revising the
            TEMP10 in preparation for the production milestone decision in June 2002. Of
            the 66 BCIS requirements identified in the ORD, the Army plans to conduct full
            or partial operational testing for only 47 of those requirements in the initial
            operational test and evaluation. For the remaining 19 BCIS requirements, the
            September 2000 R-2 Exhibit shows that the BCIS program does not have
            research, development, test and evaluation funding to operationally test those
            requirements. The following table summarizes the BCIS requirements contained
            in the ORD and shows which requirements are critical operational issues,
            funded, and developmentally and operationally tested. Appendix D provides a
            more detailed discussion of BCIS operational requirements and planned testing.




9
 Army Regulation 70-1 states that, for all acquisition category programs, the program manager will
establish working level integrated product teams that focus on topics, such as test, cost and performance,
contracting, and risk management.
10
     In comments to the draft report, the Army stated that it plans to approve the TEMP by early July 2001.

                                                      14
                         Summary of BCIS Requirements and Planned Testing

                                        Critical Resourced
                   BCIS               Operational  and/or              Developmental         Operational
               Requirements              Issue    Funded                  Test                 Test

           Fully or Partially Tested        10            46                 57                 47
           Not To Be Tested                  5            13                  9                 19
             Total                          15            59                 66                 66


           Of the 19 BCIS requirements not funded for testing, one relates to BCIS
           interoperability with situational awareness. Specifically, that requirement is the
           ability of the BCIS to correlate target identification and situational awareness
           information in the future. To satisfy this operational requirement, the Product
           Manager, Combat Identification, expended funds to create a digital linkage
           between BCIS and Army units that provides target identification data to a
           situational awareness and command and control information system.11
           However, the July 1993 TEMP does not explain how the Army will correlate
           test target identification information with situational awareness. Specifically,
           the TEMP does not show how the user will use BCIS information to update the
           situational awareness and command and control information system or how the
           Army will distribute that information to other Army, DoD, and allied platforms.
           As a result, the Army will not know, through this test, whether the BCIS can
           meet this operational requirement. In view of the critical nature of combat
           identification interoperability and the importance of fratricide reduction, the
           Office of the Director, Operational Test and Evaluation, personnel stated that
           they would include the BCIS on their test and evaluation oversight list.12

Realistic Testing of Operational Requirements
           The Product Manager did not ensure that planned operational tests addressed
           requirements for operating in all operational environments, Service
           compatibility, system reliability and supportability, platform vulnerability to
           detection, and situational awareness linkage.

           Operating in all Environments. The ORD requires the BCIS to operate in hot,
           basic, and cold climates. The Army Test and Evaluation Command plans to
           operationally test BCIS in a hot environment during the initial operational test
           and evaluation in the summer of 2001 at Fort Hood, Texas. The TEMP for the
           BCIS identifies operational testing under all battlefield and weather conditions as
           a critical issue.13 The Army Test and Evaluation Command, to be cost
11
     Referred to as the Force XXI Battle Command Battalion/Brigade and Below System.
12
 In response to the draft report, the Acting Director, Operational Test and Evaluation, stated that he
designated the BCIS for test and evaluation oversight in November 2000.
13
 Critical issues are those aspects of a system’s capability, operational, technical, or other, that must be
questioned before a system’s overall suitability can be known. Critical issues are important to the
decision authority in deciding whether to allow the system to advance to the next phase of development.

                                                     15
        effective, plans to verify BCIS operational requirements by a combination of
        developmental testing, operational testing, and modeling. Under Army Test and
        Evaluation Command oversight, the contractor will conduct developmental
        testing of a BCIS production prototype to evaluate BCIS performance in cold
        climates in FY 2001; however, the Army does not plan to conduct operational
        testing of a production prototype in a cold climate. Further, according to the
        Product Manager, the Army will only operationally test BCIS in the basic to hot
        climates under dusty and clear conditions. None of these developmental or
        operational tests will test the BCIS in fog, snow, or rain. Consequently, the
        Army Test and Evaluation Command plans to use a model to simulate fog,
        snow, and rain to evaluate BCIS capabilities in those environments.

        During the initial operational test and evaluation, the Army will test the BCIS in
        a limited operational test using only Abrams Tanks and Bradley Fighting
        Vehicles as host vehicles against gunnery range target silhouettes with BCIS
        bolted on to both the host vehicles and target silhouettes. Additionally, during
        the developmental test in FY 2001, the Army will conduct a product verification
        test on the High Mobility Multipurpose Wheeled Vehicle for reliability data.
        The Army has more than 20 different vehicle platforms that will host the BCIS.
        Operational testing on only two platforms, the Abrams Tank and the Bradley
        Fighting Vehicle, and developmental testing on the High Mobility Multipurpose
        Wheeled Vehicle will not realistically represent the battlefield environment. For
        example, the wheeled scout vehicle is not a part of the operational test;
        however, it must interrogate and transpond in the same manner as the Bradley
        Fighting Vehicle and the Abrams Tank. Therefore, the Army will have
        incomplete test results concerning the utility of the BCIS on all vehicles in an
        Army division before the planned production decision.

        Service Compatibility. The Army had not planned a joint operational test to
        ensure that the BCIS is compatible with Air Force, Navy, Marine Corps, and
        allied vehicle platforms. However, the Army planned to conduct a force-on-
        force evaluation simulation using the Combined Arms and Support Task Force
        Evaluation model to determine ground vehicle fratricide rates. This model will
        simulate warfighting scenarios for ground forces; however, the TEMP does not
        describe the scenarios involving the BCIS.

        Reliability and Supportability. During March 2001, the Army plans to
        conclude a test of BCIS reliability at the contractor’s facility during
        developmental testing using a reliability growth process.14 Specifically, the
        Army Test and Evaluation Command will test to a 70 percent confidence level
        to determine whether the BCIS satisfies the operational requirement for
        reliability to operate continuously, 24 hours per day, with a threshold mean-time
        between failure rate of 1,242 hours. However, the Product Manager, Combat
        Identification, has no research, development, testing, and evaluation funds
        beyond FY 2001 to correct or improve any reliability deficiencies identified
        during the reliability growth process.


14
  Reliability growth testing is an iterative process intended to rapidly and steadily improve reliability
using a systematic engineering process of test-analyze-fix-retest where equipment is tested under actual,
simulated, or accelerated environments.

                                                    16
     Platform Vulnerability to Detection. When the Army installs the BCIS on a
     vehicle platform, the ORD requires that it not be more detectable by threat
     forces than before the BCIS installation. However, the Army Test and
     Evaluation Command will not evaluate the potential increase in BCIS-equipped
     platforms to detection by enemy sensors because an earlier test on
     pre-production prototypes determined that the BCIS would be very hard to
     detect and exploit by an enemy sensor. In response to the report, the Army
     stated that, under the current test strategy, the Army Test and Evaluation
     Command plans to evaluate the potential increase in BCIS-equipped platforms to
     detection by enemy sensors belonging to threat forces. The evaluation will be
     based on an analysis that the Army Survivability Lethality Analysis Directorate
     will conduct on the results of planned vulnerability tests on the BCIS in from
     April through May 2001, as well as previous test results from earlier versions of
     the BCIS that the Army deems relevant to the current version of the BCIS.
     Situational Awareness Linkage. The Army does not plan to operationally test
     the BCIS with the Force XXI Battle Command Battalion/Brigade and Below
     System until FY 2004 to determine whether they work in concert to reduce
     fratricide. In March 1998, the Military Deputy to the Army Acquisition
     Executive testified before Congress concerning land-force modernization that
     the Army’s operational concept for combat identification relies on situational
     awareness and target identification working in concert. In February 1999, he
     also testified before Congress concerning protection equipment and
     countermeasure devices that data links are a very important part of the Army’s
     overall combat identification solution. Further, the ORD and the C4I Support
     Plan require that the BCIS be able to provide target identification information to
     situational awareness systems. The Product Manager funded efforts to develop
     a link between the BCIS and the Force XXI Battle Command Battalion/Brigade
     and Below System, situational awareness system. However, the planned initial
     operational test and evaluation in the fourth quarter of FY 2001 will not test or
     evaluate the link to determine how effectively the BCIS passes target
     identification data to the Force XXI Battle Command Battalion/Brigade and
     Below System. Instead, the Product Manager, Combat Identification, plans to
     rely on a follow-on operational test and evaluation in FY 2004, funded by the
     Army Test and Evaluation Command to determine whether the BCIS and the
     Force XXI Battle Command Battalion/Brigade and Below System work in
     concert to reduce fratricide. Consequently, without operationally testing the
     BCIS with the Force XXI Battle Command Battalion/Brigade and Below System
     before FY 2004, the Army made decisions at its in-process review in
     February 2001 and will make decisions at its full-rate production decision
     review in June 2002 concerning acquiring additional BCIS units without
     knowing whether situational awareness and target identification are working in
     concert.

Effect of Operational Testing Without Current Operational
  Requirements and Test Plan
     Without an updated TEMP for the BCIS that accurately shows user
     requirements, testers will not fully evaluate the effectiveness of the BCIS in
     reducing fratricide. An updated TEMP should be based on an ORD, approved

                                         17
        for interoperability, and should accurately include tests for user operational
        requirements and for situational awareness interoperability. Consequently, the
        Army should have delayed the BCIS in-process review and not committed to the
        procurement of an additional 1,032 BCIS units, costing about $43.3 million,15
        until it updated the TEMP for the BCIS, completed the initial operational test
        and evaluation, and tested for situational awareness interoperability. By
        updating the TEMP, the Army operational testers will be able to test the BCIS
        to:

                 •   determine whether BCIS meets the user’s needs, including situational
                     awareness interoperability when certified by the Joint Chiefs of Staff;

                 •   identify current and future schedule and resource constraints that
                     have an impact on program schedule, test management strategy and
                     structure, and resources required to evaluate critical operational
                     issues, objectives, and thresholds documented in the updated ORD;
                     and

                 •   provide operational test data based on an updated TEMP to the
                     milestone decision authority to assess the readiness of the BCIS to
                     enter full-rate production in June 2002.

        If the Army had delayed the in-process review until it had an updated and
        approved ORD and TEMP, it would have decreased the risk of producing
        additional BCIS units that do not fully meet the needs of the user to reduce
        fratricide.

Management Comments on the Finding and Audit Responses
        Summaries of management comments on the finding and our responses are in
        Appendix E.

Recommendations, Management Comments, and Audit
  Responses
        B.1. We recommend that the Army Training and Doctrine Command
        System Manager for the Battlefield Combat Identification System update
        the operational requirements document for the Battlefield Combat
        Identification System before March 2001 to include corrected deficiencies
        that the Director for Command, Control, Communications, and Computers
        (J-6) and the Director, Defense Information Systems Agency, identified.

        Army Comments. The Deputy for Systems Management and Horizontal
        Technology Integration did not specifically address the recommendation.
        However, in his overall comments to the report, he stated that the Army

15
  We calculated the $43.3 million cost to acquire 1,032 BCIS units by using a unit cost of $42,000, which
the Office of the Product Manager, Combat Identification, provided.

                                                   18
Training and Doctrine Command System Manager updated the ORD and
provided it to the Director for Command, Control, Communications, and
Computers (J-6) and the Director, Defense Information Systems Agency, for
review. The Deputy anticipates ORD approval by April 2001. For the
complete text of the Deputy’s comments, see the Management Comments
section of this report.

Deputy Assistant Secretary of Defense (Command, Control,
Communications, Intelligence, Surveillance, Reconnaissance, and Space)
Comments. Although not required to comment, the Deputy Assistant noted that
the Army was updating the ORD for the BCIS. For the complete text of the
Deputy Assistant’s comments, see the Management Comments section of this
report.
Acting Director, Operational Test and Evaluation Comments. Although not
required to comment, the Acting Director stated that the Army should
implement the recommendation as soon as practicable. For the complete text of
the Acting Director’s comments, see the Management Comments section of this
report.

Audit Response. The Army comments were responsive. However, as of
March 2001, the Director for Command, Control, Communications, and
Computers (J-6) and the Director, Defense Information Systems Agency, had
not certified the updated ORD for the BCIS. Both organizations nonconcurred
with a previously updated version of the ORD in November 2000. The J-6
stated that the updated ORD must pass a certification phase before Army final
approval. Until the ORD is approved, the Army cannot finalize the TEMP,
which provides the overall structure and objectives for the initial operational test
and evaluation to determine whether BCIS meets user operational requirements.

B.2. We recommend that the Director, Operational Test and Evaluation,
designate the Battlefield Combat Identification System for oversight, and
review the updated Battlefield Combat Identification System test and
evaluation master plan, detailed test plans, and operational test results
before March 2001.

Acting Director, Operational Test and Evaluation Comments. The Acting
Director concurred, stating that he designated the BCIS for test and evaluation
oversight in November 2000.

Deputy Assistant Secretary of Defense (Command, Control,
Communications, Intelligence, Surveillance, Reconnaissance, and Space)
Comments. Although not required to comment, the Deputy Assistant noted that
the Director, Operational Test and Evaluation, had agreed to designate the BCIS
for oversight.




                                     19
B.3. We recommend that the Product Manager, Combat Identification:

       a. Update the test and evaluation master plan to accurately show
current and future tests and evaluations, resource and schedule activities,
and the test management strategy and structure as derived from the
updated operational requirements document for the Battlefield Combat
Identification System.

Army Comments. The Deputy for Systems Management and Horizontal
Technology Integration did not specifically address the recommendation.
However, in his overall comments on the report, the Deputy stated that he
anticipates TEMP approval by early July 2001. Further, the Deputy stated the
Army was satisfied that the requirements in the updated ORD and the test
program shown in the TEMP provide an adequate basis for the testers to
determine whether the production hardware fully meets user needs.

Deputy Assistant Secretary of Defense (Command, Control,
Communications, Intelligence, Surveillance, Reconnaissance, and Space)
Comments. Although not required to comment, the Deputy Assistant noted that
the Army was updating the TEMP for the BCIS.

Acting Director, Operational Test and Evaluation Comments. Although not
required to comment, the Acting Director stated that the Army should
implement the recommendation as soon as practicable.

Audit Response. The Army comments were responsive. However, if the
updated ORD and TEMP are not approved before the initial operational test and
evaluation in the fourth quarter of FY 2001, the Army should delay the initial
operational test and evaluation. If the Army proceeds with its initial operational
test and evaluation without an approved and updated ORD and TEMP, it will
not be able to determine whether the BCIS will reduce fratricide and will not be
able to provide operational test data, based on an updated TEMP, to the
milestone decision authority to assess the readiness of the BCIS to enter full-rate
production.

       b. Delay the January 2001 In-Process Review until the Army
completes its testing as identified in the updated Battlefield Combat
Identification System test and evaluation master plan before deciding on
procurement of an additional 1,032 Battlefield Combat Identification
System units for further low-rate initial production.

Army Comments. The Deputy for Systems Management and Horizontal
Technology Integration did not specifically address the recommendation.
However, in his overall comments to the report, he stated that the Military
Deputy to the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) convened the in-process review on February 20, 2001. The
Military Deputy concluded that the Army met all the requirements for the
in-process review and granted approval to implement the third phase of the
low-rate initial production after the reliability development growth test that was
in process was completed.



                                    20
Deputy Assistant Secretary of Defense (Command, Control,
Communications, Intelligence, Surveillance, Reconnaissance, and Space)
Comments. Although not required to comment, the Deputy Assistant thought
that the recommendation should be deleted because the Army had completed the
in-process review and approved the third phase of BCIS low-rate initial
production.

Acting Director, Operational Test and Evaluation Comments. Although not
required to comment, the Acting Director stated that the Army should
implement the recommendation as soon as practicable.

Audit Response. The Army comments were not responsive. According to the
BCIS Acquisition Strategy, the third phase of the low-rate initial production was
to procure an additional 1,032 BCIS units, costing about $43.3 million, for the
4th Infantry Division over a 7-year period--not to support developmental testing
or initial operational test and evaluation. DoD Instruction 5000.2-R states that
the objective of low-rate initial production is to produce the minimum quantity
necessary to provide production configured articles for operational test, establish
an initial production base for the system, and permit an orderly increase in the
production rate for the system that is sufficient to lead to full-rate production
after successful operational testing. Further, the Army decision to procure
1,032 BCIS units for the third phase of the low-rate initial production was not
justified because the Army:

       •   had not fully funded the BCIS,

       •   planned to only field to the 4th Infantry Division, and

       •   previously approved first and second phases of the low-rate initial
           production to provide 137 BCIS units to support developmental
           testing and initial operational test and evaluation.




                                    21
Appendix A. Audit Process

Scope and Methodology
    We reviewed documentation dated from April 1992 to November 2000. We
    interviewed and obtained documentation from the staffs of the Office of the Joint
    Chiefs of Staff; the Assistant Secretary of Defense (Command, Control,
    Communications and Intelligence); the TRADOC; the Assistant Secretary of the
    Army (Acquisition, Logistics, and Technology); the Director, Operational Test
    and Evaluation; the Defense Information Systems Agency; the Director of the
    Army Staff; the Army Deputy Chief of Staff for Operations and Plans; the
    Army Test and Evaluation Command; the Program Executive Officer for
    Intelligence, Electronic Warfare, and Sensors; and the Product Manager,
    Combat Identification. Because the BCIS was in the late phase of engineering
    and manufacturing development, the audit concentrated on whether management
    was cost-effective in readying the system for the production phase of the
    acquisition process. Consequently, we focused our review on the areas of
    requirements generation, acquisition planning, program assessments and
    decision reviews, and test and evaluation.

    Auditing Standards. We conducted this program audit from June through
    December 2000 in accordance with auditing standards issued by the Comptroller
    General of the United States, as implemented by the Inspector General, DoD.
    Accordingly, we included tests of management controls considered necessary.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal and subordinate
    performance goal.

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
             uncertain future by pursuing a focused modernization effort that
             maintains U.S. qualitative superiority in key warfighting capabilities.
             Transform the force by exploiting the Revolution in Military Affairs,
             and reengineer the Department to achieve a 21st century
             infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
             needs smarter and faster, with products and services that work better
             and cost less, by improving the efficiency of the DoD acquisition
             processes. (01-DoD-2.4)

                                       22
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapons Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to requirements generation, acquisition
    planning, program assessments and decision reviews, and test and evaluation.
    We reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the BCIS as defined by DoD Directive 5010.40. The
    management controls for program documentation were not adequate to ensure
    that the Office of the Product Manager, Combat Identification, periodically
    reviewed the ORD and TEMP for the BCIS for currency, applicability, and
    compliance. Recommendations B.1., B.2., and B.3.a., if implemented, will
    ensure that the documents are up-to-date and in compliance with Army
    guidance, and that the testing conducted will address approved system
    operational and interoperability requirements. We will provide a copy of the
    report to the senior official responsible for management controls in the Office of
    the Assistant Secretary of the Army (Financial Management and Comptroller).

    Adequacy of Management's Self-Evaluation. In the “Product Manager,
    Combat Identification, Management Controls Assurance Statement,”
    January 28, 2000, the Internal Management Control Administrator identified the
    ORD as part of an assessable unit within the Programmatics section of the
    statement. The Programmatics section addressed the cost, schedule, and
    performance characteristics of the BCIS and the Combat Identification for the
    Dismounted Soldier programs under the cognizance of the Product Manager,
    Combat Identification. The statement did not identify a management control
    weakness for the ORD even though the assessment was based on a review of
    whether the document was up-to-date, applicable, and compliant. For instance,
    the ORD requires the BCIS to have the capability to work in a dismounted role.
    In its current configuration, the BCIS is not suitable for dismounted soldiers
    because of weight constraints; however, the Product Manager will achieve the




                                        23
           capability in the Combat Identification for the Dismounted Soldier Program.16
           Additionally, the statement did not assess the TEMP for the BCIS and whether
           the program had a comprehensive and up-to-date test-management strategy and
           structure to address approved operational and interoperability requirements. As
           a result, the administrator did not identify or report the material management
           control weakness for the TEMP identified in the audit.

Prior Coverage
           During the last 5 years, the General Accounting Office issued two reports
           addressing the BCIS.

           Report No. NSIAD-99-206,17 “DoD Training Can Do More to Help Weapon
           System Programs Implement Best Practices,” August 16, 1999

           Report No. NSIAD-95-153 (OSD Case No. 9936), “Changes Needed in
           Management Plans and Structure,” September 14, 1995.

Management Comments on Management Control Program
 Review
           Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
           Technology) Comments. The Deputy for Systems Management and Horizontal
           Technology Integration, Office of the Assistant Secretary of the Army
           (Acquisition, Logistics, and Technology), provided comments on the “Adequacy
           of Management’s Self-Evaluation.” The Deputy stated that the report was
           correct in stating that the management control program did not ensure that Army
           management periodically reviewed program documents to determine whether
           they were up-to-date and in compliance with Army guidance. Further, the
           Deputy stated that the TRADOC System Manager had accommodated
           recommendations by the Director for Command, Control, Communications, and
           Computers (J-6); and the Director, Defense Information Systems Agency,
           concerning the ORD. The Deputy expects approval of the ORD by April 2001.
           The Deputy also stated that the Product Manager, Combat Identification, along
           with the BCIS Test Working-Level Integrated Product Team was updating the
           TEMP to show tests and evaluations, resource and schedule activities, and a test
           management strategy that is based on the updated ORD. The Deputy expects
           approval of the TEMP in early July 2001. Further, the Deputy stated that the
           Product Manager had implemented measures to strengthen the management
           control process so that the annual assessment will identify documents that are
           not up-to-date, applicable, and compliant.


16
 The Office of the Product Manager, Combat Identification, is responsible for the BCIS and for the
Combat Identification for the Dismounted Soldier Program. The Combat Identification for the
Dismounted Soldier Program is developing a battlefield identification capability for dismounted ground
maneuver forces to identify friendly troops.
17
     The report does not have an OSD case number.

                                                    24
Appendix B. Definitions of Technical Terms
   Acquisition Category II. Acquisition Category (ACAT) II programs are
   defined as those acquisition program that do not meet the research,
   development, test and evaluation and procurement dollar thresholds for an
   ACAT I, major Defense acquisition program or an ACAT IA, major automated
   information system. The milestone decision authority is the DoD Component
   Acquisition Executive.

   Acquisition Program Baseline. The acquisition program baseline embodies the
   cost, schedule, and performance objectives for the program.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Army Procurement Objective. The Army procurement objective is what the
   Army is going to acquire in the Program Objectives Memorandum or the
   Out-Years, or both.

   Brigade Support Area. The brigade support area is a designated area in which
   combat service support elements from division support command and corps
   support command provide logistic support to a brigade. The forward support
   battalion manages the terrain and unit locations. Examples of units located in
   the brigade support area are command posts, supply companies, ammunition
   transfer points, and forward support medical companies.

   Budget Estimate Submission. The budget estimate submission is the DoD
   Component's budget submissions to the Office of the Secretary of Defense
   showing budget requirements for inclusion in the DoD budget.

   Combat Identification. Combat identification is a subset of and complement to
   situational awareness. Each can enhance the effectiveness of the other, and both
   contribute to avoiding fratricide and improving combat effectiveness.

   Command and Control. Command and control is the exercise of authority and
   direction by a properly designated commander over assigned and attached forces
   in the accomplishment of the mission. Command and control functions are
   performed through an arrangement of personnel, equipment, communications,
   facilities, and procedures employed by a commander in planning, directing,
   coordinating, and controlling forces and operations in the accomplishment of the
   mission.

   Critical Issue. A critical issue is an aspect of a system’s capability,
   operational, technical, or other, that must be questioned before a system’s


                                       25
overall suitability can be known. Critical issues are of importance to the
decision authority in reaching a decision to allow the system to advance to the
next phase of development.

Critical Operational Issue. A critical operational issue is an issue of
operational effectiveness and operational suitability (not parameters, objectives,
or thresholds) that must be examined in operational test and evaluation to
determine the system’s capability to perform its mission. A critical operational
issue is normally phrased as a question that must be answered to properly
evaluate operational effectiveness or operational suitability.

Engineering and Manufacturing Development. The objective of the
engineering and manufacturing development phase in the acquisition process is
to translate the most promising design approach into a stable, interoperable,
producible, and cost-effective design; validate the manufacturing process; and
demonstrate system capabilities through testing. The intended output of the
phase is, as a minimum, a preproduction system which closely approximates the
final product, the documentation necessary to enter the production phase, and
the test results that demonstrate that the production product will meet stated
requirements.

Force XXI Battle Command Battalion/Brigade and Below System.
Force XXI Battle Command Battalion/Brigade and Below System, which the
Army commonly refers to as “FBCB2,” is a digital communications system that
provides situational awareness for all levels of command on the battlefield.

Fratricide. Fratricide is the use of friendly weapons and munitions with the
intent to kill enemy personnel or destroy their equipment or facilities, resulting
in unforeseen and unintentional deaths or injury to friendly personnel.

Full Funding. Full funding is a DoD policy that applies to research,
development, test and evaluation; procurement; and military construction
appropriation accounts, and is defined in the DoD Financial Management
Regulation. Full funding incorporates two related, but different policies. The
first states that a DoD Component must identify and set aside sufficient funds in
its Future Years Defense Program to cover the Component's best estimate of the
annual cost for the program in each fiscal year of the Future Years Defense
Program and must keep the estimate current. The second states that the DoD
Component must provide sufficient funding in the annual appropriation of funds
for the total estimated costs to be incurred in the delivery of a given quantity of
a usable end item.

Full-Rate Production. Full-rate production is contracting for economic
production quantities following stabilization of the system design and validation
of the production process.

Future Years Defense Program. The Future Years Defense Program is the
official DoD document that summarizes forces and resources associated with
programs approved by the Secretary of Defense. Its three parts are the
organizations affected, appropriations accounts, and the 11 major force
programs.


                                    26
Information Exchange Requirements. Information exchange requirements
characterize the information exchanges to be performed by a proposed system
and identify who exchanges what information with whom as well as why the
information is necessary and how the users will employ that information.

Initial Operational Test and Evaluation. Initial operational test and evaluation
is testing conducted on production, or production representative articles, to
determine whether systems are operationally effective and suitable for intended
use by representative users to support the decision to proceed beyond low-rate
initial production.

Integrated Product Team. An integrated product team is a team composed of
representatives from all appropriate functional disciplines working together to
build successful programs, identify and resolve issues, and make sound and
timely recommendations to facilitate decision making.

Key Performance Parameters. Key performance parameters are capabilities
or characteristics so significant that failure to meet the threshold or minimum
acceptable value can be cause for the concept or system selected to be
reevaluated or the program to be reassessed or terminated.

Life-Cycle Cost. The life-cycle cost is the total cost to the government of
acquisition and ownership of a system over its useful life. It includes the cost of
development, acquisition, operations, and support (to include manpower), and
where applicable, disposal.

Low-Rate Initial Production. Low-rate initial production is the minimum
number of systems to provide production representative articles for operational
test and evaluation, to establish an initial production base, and to permit an
orderly increase in the production rate sufficient to lead to full-rate production
upon successful completion of operational testing.

Materiel Developer. A materiel developer is a command or agency responsible
for research and development and production validation of an item.

Minimum Operational Performance Requirement. A minimum operational
performance requirement is the most important user or user-representative
generated performance needs developed to address mission area deficiencies,
evolving threats, and emerging technologies.

Milestone Decision Authority. The milestone decision authority is the
individual designated in accordance with criteria established by the Under
Secretary of Defense for Acquisition, Technology, and Logistics to approve
entry of a program into the next phase of the acquisition process.

National Security System. A national security system consists of those
telecommunications and information systems that DoD operates. The function,
operation, or use of those systems involves equipment that is an integral part of
a weapon or weapons systems.




                                    27
Objective. The objective is the performance value that is desired by the user
and which the program manager is attempting to obtain that represents an
operationally meaningful, time critical, and cost effective increment above the
performance threshold.

Operational Requirements Document. The ORD shows the users objectives
and minimum acceptable requirements for operational performance of a
proposed concept or system.

Out-Years. Out-years are 6 years beyond the year being worked in the
upcoming budget and are used to refer to years beyond the current Future Years
Defense Program. For example, the Future Years Defense Program covers
2002 to 2007, out-years are 2008 and beyond.
Performance. Performance is an operational and support characteristic of a
system that allows it to effectively and efficiently perform its assigned mission
over time. The support characteristics of the system include both supportability
aspects of the design and the support elements necessary for system operation.

Pre-Planned Product Improvement. A pre-planned product improvement
includes improvements planned for ongoing systems that go beyond the current
performance envelope to achieve a needed operational capability.

President's Budget. The President's budget is the Federal Government budget
for a particular fiscal year transmitted on the first Monday in February to the
Congress by the President in accordance with the Budget Enforcement Act of
1992.

Program Objectives Memorandum. The Program Objectives Memorandum is
an annual memorandum submitted to the Secretary of Defense by the DoD
component heads that recommends the total resource requirements and programs
within the parameters of the Secretary of Defense's fiscal guidance. It is the
principal programming document that details how a DoD component proposes to
respond to assignments in the defense planning guidance and satisfy its assigned
functions in the Future Years Defense Program. The Program Objectives
Memorandum shows programmed needs for 5 or 6 years hence, and includes
staffing, force levels, procurement, facilities, and research and development.

Reliability. Reliability is the ability of a system and its parts to perform its
mission without failure, degradation, or demand on the support system.

Reliability Growth Testing. Reliability growth testing is an iterative process
intended to rapidly and steadily improve reliability using a systematic
engineering process of test-analyze-fix-retest where equipment is tested under
actual, simulated, or accelerated environments.

Research, Development, Test and Evaluation. Research, development, test
and evaluation are activities for the development of a new system that include
basic and applied research, advanced technology development, demonstration
and validation, engineering development, developmental and operational testing
and the evaluation of test results.


                                     28
Situational Awareness. Situational awareness is knowledge of the tactical
environment; that is, knowledge of where friendly, enemy, and neutral forces
are located.

Standardization Agreement. A standardization agreement is the record of an
agreement among several or all the North Atlantic Treaty Organization member
nations to adopt like or similar military equipment, ammunition, and supplies;
and operational, logistical, and administrative procedures.

Tactics, Techniques, and Procedures. Tactics are the art and science of
employing available means to win battles and engagements. Techniques are
methods that commanders and troops use to perform assigned missions and
functions using equipment and personnel. Procedures are the standards and
detailed courses of action that describe how to perform a task.
Test and Evaluation Master Plan. The test and evaluation master plan
(TEMP) documents the overall structure and objectives of the test and
evaluation program. It provides a framework within which to generate detailed
test and evaluation plans and it documents schedule and resource implications
associated with the test and evaluation program. The TEMP identifies the
necessary developmental test and evaluation, operational test and evaluation, and
live fire test and evaluation activities. Further, the TEMP relates program
schedule, test management strategy and structure, and required resources to:
critical operational issues; critical technical parameters; objectives and
thresholds documented in the ORD; evaluation criteria; and milestone decision
points.

Threshold. A threshold is the minimum acceptable value of performance
which, in the user’s judgment, is necessary to satisfy the need.

Requirement Threshold. A requirement threshold is a threshold noted in the
ORD, but not as a critical issue or minimum operational performance
requirement.




                                   29
Appendix C. Army Acquisition Executive
            Memorandum




                     30
31
Appendix D. Battlefield Combat Identification
            System Operational Requirements
           The table below compares the ORD for the BCIS to the critical operational issue
           criteria,1 funding, and developmental and operational testing. The July 1993
           TEMP and the Working Test and Evaluation briefings, June 14, 2000, were the
           basis for developmental and operational testing. Of the 66 BCIS requirements
           identified in the ORD, 47 requirements will undergo full or partial initial
           operational testing before the full-rate production decision. Of those
           47 requirements, 8 requirements are critical issues;2 however, the Army will not
           operationally test 2 of those 8 requirements under all of the conditions stated in
           the ORD. Testing results obtained on the critical issues will support both the
           in-progress review and the production milestone decision. Of the
           47 requirements, the Working Integrated Product Team identified 9 minimum
           acceptable operational performance requirements. Of the 19 remaining
           requirements that the Army will not operationally test, 4 requirements identify
           thresholds that BCIS must meet. Specifically, 2 of the 4 requirements relate to
           dismounted forces, 1 requirement relates to modularity of major functional
           elements, and 1 requirement relates to interoperability with situational
           awareness.

           In this appendix, the critical operational issues are highlighted in gray boxes
           with normal type. Additionally, the critical issues and the minimum acceptable
           operational performance requirements are highlighted in gray boxes with bold
           type and gray boxes with Italics type, respectively.


            BCIS Requirements                Critical        Resourced      Developmental       Operational
                                            Operational       and or             Test              Test
                                              Issue           Funded
    1. BCIS will combine Target                NO              YES                YES               NO3
    Identification (TI) and Situational
    Awareness (SA) capabilities used by
    Combat, Combat Support, and
    Combat Service Support units.


1
 Critical operational issues are operational effectiveness and operational suitability issues (not parameters,
objectives, or thresholds) that must be examined in operational test and evaluation to determine the
system’s capability to perform its mission. A critical operational issue is normally phrased as a question
that must be answered to properly evaluate operational effectiveness or operational suitability.
2
 Critical issues are those aspects of a system’s capability, operational, technical, or other, that must be
questioned before a system’s overall suitability can be known. Critical issues are of importance to the
decision authority in reaching a decision to allow the system to advance to the next phase of
development.
3
 The Product Office, Combat Identification, does not plan to conduct a combined operational test of
target identification and situational awareness during the initial operational test and evaluation for the
BCIS; however, the Product Office does plan to conduct an operational test of the BCIS and the
Force XXI Battle Command Battalion/Brigade and Below System as part of the Follow-on Operational
Test and Evaluation in FY 2004 even though the Product Office is not resourced for the test.

                                                     32
             BCIS Requirements                  Critical     Resourced    Developmental      Operational
                                               Operational    and or           Test             Test
                                                 Issue        Funded
    2. TI will be used to positively              NO         PARTIAL4           NO            PARTIAL5
    identify friendly ground and air
    platforms in the Ground to Ground
    and dismounted ground maneuver
    forces (mounted and dismounted),
    Air to Ground (rotary wing), Air to
    Air (rotary wing).
    3. Units that receive BCIS will               NO           YES              YES               NO6
    conduct missions throughout the
    continuum of military operations.
    4. Near-term BCIS will rely upon              NO           YES              YES               YES
    Global Position System, Integrated
    Vehicular Information System and
    Enhanced Position Location
    Reporting System for position
    information.
    5. Far-term BCIS shall consist of a           NO           YES                   8            NO
                                                                               YES
    joint, fully integrated positive friend,
    hostile, and neutral and noncombatant
    identification, communication, and
    Position/Navigation system that
    provides on-platform correlation of
                 7
    TI and SA.
    6. BCIS must be operationally                 NO           YES9             YES              NO10
    compatible with appropriate Air
    Force, Navy, and Marine Corps
    systems.




4
 Partial, because the Army has only funded efforts to positively identify friendly ground-to-ground
vehicles and dismounted ground maneuver forces.
5
    Partial, see footnote 5.
6
 The Army did conduct numerous military exercises and demonstrations in the past 7 years exercises;
however those exercises and demonstrations used pre-production prototype BCIS units.
7
 The Army does not have research, development, testing and evaluation funds for testing or further
integration of this requirement after FY 2001, according to the BCIS September 2000 R-2 form.
8
 The 1998 TRW marketing brochure for BCIS claims that BCIS has the ability via a digital data link to
pass front-line situational awareness data across the battlefield and to provide a short–range supplement
to the Tactical Internet. Personnel in the BCIS Product Office stated that funds have been obligated to
link BCIS target identification data together with Force XXI Battle Command Battalion/Brigade and
Below System situational awareness data.
9
    The Army conducted the testing in FY 1997, using Light Assault Vehicles.
10
 The Army tested the BCIS in numerous other military demonstrations and exercises in the past 7 years
with earlier BCIS configurations.

                                                       33
            BCIS Requirements               Critical           Resourced    Developmental       Operational
                                           Operational          and or           Test              Test
                                             Issue              Funded
 7. Compatibility with traditional            NO                 YES             YES11              NO12
 allies.
 8. Engagement process will not                 NO               YES             YES                YES
 change with the addition of BCIS to
 the platform.
 9. BCIS must operate in the Standard                13                           YES               YES
                                               2.0               YES
 Army Maintenance System using
 standard tools and Test,
 Measurement, Diagnostic Equipment.
 10. Reduce fratricide.                              14          YES             YES                YES
                                               1.0
 11. BCIS for mid- and far-term shall           NO               YES             YES                NO16
                                 15
 provide integrated TI and SA.
 12. Near-term BCIS will use Global             NO               YES             YES                YES
 Position System.
 13. Near-term BCIS shall provide TI            NO             PARTIAL17         YES            PARTIAL18
 of friendly ground and airborne
 platforms to include dismounted
 soldiers, in ground–to-ground, air-to-
 ground (rotary wing), ground-to-air
 (rotary wing), and air-to-air (rotary
 wing) missions.




11
     The Army used BCIS in a European demonstration on allied tanks.
12
  For the initial operational test and evaluation, the Army will not used the actual allied platforms.
Instead, it will use allied platforms consisting of target silhouettes with BCIS mounted to them.
13
  Critical Operational Issue Criterion 2.0 asks whether BCIS equipped support units achieve and maintain
training and maintenance standards within existing training and logistic systems?
14
 Critical Operational Issue Criterion 1.0 asks if BCIS equipped units have reduced fratricide rates and
improved target identification of friendly forces without degrading unit combat effectiveness?
15
  The Army does not have research, development, testing and evaluation funds for testing or further
integration of this requirement after FY 2001, according to the BCIS September 2000 R-2 form.
16
 The Army will not test BCIS with a situation awareness device in an operational test until FY 2004,
approximately 18 months after the planned full-rate production decision.
17
  The Army tested early BCIS prototypes on rotary and fixed-wing aircraft and plans to test low-rate
initial production BCIS units on ground vehicles and not on rotary and fixed-wing aircraft.
18
 The Army plans to operationally test only the M1A1D Tanks and M2 Bradley Fighting Vehicles
(Operation Desert Storm variants), and high mobility multi-purpose wheeled vehicles.

                                                          34
          BCIS Requirements                 Critical       Resourced      Developmental       Operational
                                           Operational      and or             Test              Test
                                             Issue          Funded
 14. BCIS shall then automatically            NO             YES19             YES20             NO21
 integrate and correlate SA (friendly
 and enemy position location) as
 reported through command and
 control systems, with through-sight or
 target designation/acquisition device
 TI.
 15. SA performance shall be as                NO             YES               YES               YES
 stated in Global Position System,
 Enhanced Position Location
 Reporting System and other related
 requirement documents.
                                                     22                                                  23
 16. Near-term TI provide                    1.2.1            YES               YES           PARTIAL
 0.90 (threshold) and
 0.99 (objective) probability of
 correct identification, under all
 battlefield conditions of targets not
 identified by other means for
 friendly ground
 (mounted/dismounted) and air
 platforms equipped with BCIS.
 Objective system shall provide this
 same reliability for friendly fixed
 wing aircraft, enemy, neutrals, and
 noncombatants.




19
 Situational awareness integration is ongoing with Force XXI Battle Command Battalion/Brigade and
Below System; however, through-sight situational awareness is still in the science and technology phase
of development.
20
 Science and technology projects are undergoing developmental tests and, if successful, will require
substantial funding to mature.
21
  The initial operational test and evaluation does not assess situational awareness products with the BCIS.
Consequently, the Product Manager, Combat Identification, plans to test science and technology projects
to assess situational awareness with the BCIS in a proposed follow-on operational test and evaluation in
FY 2004. However, the TEMP does not address the proposed follow-on operational test and evaluation.
22
  Critical Operational Issue Criterion 1.2.1 states that BCIS operator must attain 90 percent (threshold)
and 99 percent (objective) probability of correct identification of friendly platforms under each set of
battlefield and weather conditions (such as smoke, electronic warfare, and fog) which allows BCIS host
to engage target not identified by other means, while moving and static, at ranges and separations
specified in the ORD for the BCIS.
23
  The Army operationally tested a pre-production prototype of the BCIS in artic conditions and plans to
developmentally test a production prototype in artic conditions. However, the Army plans to only
operationally test a production prototype BCIS in basic and hot climates in clear and dusty conditions and
to operationally simulate the BCIS in fog, rain, and snow conditions.

                                                      35
         BCIS Requirements                 Critical        Resourced     Developmental      Operational
                                          Operational       and or            Test             Test
                                             Issue          Funded
                                                  24
 17. TI process shall be                    1.2.2            YES               YES              YES
 accomplished in parallel with the
 current engagement procedures and
 in less than one second (threshold).
 18. BCIS provide TI and system                NO             YES              YES               YES
 status to both the platform/aircraft
 commander (TC) and
 gunner/operator (OPR) at the
 primary weapon sights or target
 designation/acquisition device.
 19. Indications shall be visual and           NO             YES              YES               YES
 audible to gunner/operator.
 20. Identification initiation process         NO             YES              YES               YES
 shall be automatic and fully
 integrated into the targeting process.
 21. Indication mode shall be operator         NO             YES              YES              YES
 selectable (with the option to bypass
 one or the other in order to promote
 operational security) (threshold).
 22. Discriminate between potential                  25      YES               YES              YES
                                             1.2.1
 targets that are angularly separated
 by + 22.5 mils (threshold).
 23. BCIS must discriminate between                  26       NO               NO                NO
                                             1.2.1
 potential targets, identified by small
 arms or crew served weapons that are
 angularly separated by + 50 mils
 (threshold).




24
  Critical Operational Issue Criterion 1.2.2 states that BCIS interrogator-equipped platforms must not
increase engagement time in an intermingled scenario (friend and foe) when compared to engagement
times of like systems not equipped with BCIS in a like intermingled scenario.
25
  Critical Operational Issue Criterion 1.2.1 states that the BCIS operator must attain 90 percent
(threshold) and 99 percent (objective) probability of correct identification of friendly platforms under
each set of battlefield and weather conditions (such as smoke, electronic warfare, and fog) which allows
BCIS host to engage target not identified by other means, while moving and static, at ranges and
separations specified in the ORD for the BCIS.
26
  See footnote 25. BCIS operational test plans address only ground vehicle to ground vehicle
capabilities.

                                                      36
         BCIS Requirements                 Critical        Resourced     Developmental      Operational
                                          Operational       and or            Test             Test
                                             Issue          Funded
 24. The system integrated into                   27          NO               NO               NO
                                            1.2.1
 aviation platforms (helicopter) must
 correctly identify potential ground
 targets at 8 kilometers separated
 laterally by +175 meters and
 +133 meters in range; at
 5 kilometers separated laterally by
 +105 meters and +83 meters in
 range.
 25. In conjunction with other SA                    28      YES              YES               NO
                                             1.2.1
 devices, BCIS must also discriminate
 between targets separated in range by
 500 meters (threshold) and
 100 meters (objective).
 26. Provide automatic identification         NO             YES              YES               YES
 from transponder regardless of the
 aspect angle (threshold).
 27. Identify (near-term interrogate                 29      YES              YES               YES
                                             1.2.1
 and respond) with both systems static,
 one moving and one static, and both
 systems on the move (threshold).




27
  Critical Operational Issue Criterion 1.2.1 states that the BCIS operator must attain 90 percent
(threshold) and 99 percent (objective) probability of correct identification of friendly platforms under
each set of battlefield and weather conditions (such as smoke, electronic warfare, and fog) which allows
BCIS host to engage target not identified by other means, while moving and static, at ranges and
separations specified in the ORD for the BCIS.
28
  See footnote 27. BCIS operational test plans do not address the situational awareness capability. The
BCIS Product Office has no future research and development funds to integrate situational awareness
technologies with BCIS.
29
  Critical Operational Issue Criterion 1.2.1 states that the BCIS operator must attain 90 percent
(threshold) and 99 percent (objective) probability of correct identification of friendly platforms under
each set of battlefield and weather conditions (such as smoke, electronic warfare, and fog) which allows
BCIS host to engage target not identified by other means, while moving and static, at ranges and
separations specified in the ORD for the BCIS.

                                                      37
         BCIS Requirements                 Critical      Resourced      Developmental     Operational
                                          Operational     and or             Test            Test
                                             Issue        Funded
                                                  30                                               31
 28. Provide identification, under          1.2.1          YES               YES             YES
 all battlefield and weather
 conditions, which could permit the
 BCIS host to engage a target. As a
 minimum, under clear conditions,
 BCIS must identify out to the host
 system’s maximum effective range
 multiplied by 1.5.
 29. Process a minimum of three              NO             YES              YES              YES
 near-simultaneous identifications
 (near-term interrogations or
 responses) in less than one second
 (threshold).
 30. For use in the dismounted role,          NO             NO               NO               NO
 devise shall conform to the Enhanced
 Integrated Soldier System weight
 budget (threshold), less than one
 pound (objective).
 31. Operate on and within the host           NO            YES              YES              YES
 platform power budget of any U.S.
 system, with backup of standard issue
 batteries for emergency, dismounted
 operations, or allied force usage.
 32. When batteries are used, BCIS            NO            YES              YES               YES
 must be capable of at least a
 combination of 48 inquiries and/or
 responses, and 24 hours of
 continuous monitoring (threshold).
 33. Incorporate self test (threshold).      NO             YES              YES              YES
 34. Incorporate built-in test               NO             YES              YES              YES
 (threshold).
 35. Incorporate built-in test                NO            YES              YES              YES
 equipment (objective).
 36. Meet weight, space, and cube so          NO            YES              YES              YES
 that neither exceed host system design
 limitations nor decrease the
 transportability/mobility of the host
 system (threshold).




30
 See footnote 23. BCIS will not be operationally tested in a cold climate and simulated in weather
conditions. The ORD states that BCIS must operate in a hot, basic, and cold climatic design types. The
Army is planning to use developmental testing data to evaluate the cold climate requirement.
31
 The Product Manager for Combat Identification plans to test BCIS in a basic and hot climate and in
only clear and dusty conditions before the Military Deputy in-progress review and production milestone
decision.

                                                   38
        BCIS Requirements                   Critical     Resourced   Developmental   Operational
                                           Operational    and or          Test          Test
                                             Issue        Funded
37. Be reprogrammable in the field            NO           YES           YES            NO
to allow input of new or changed
signatures and identification decision
parameters (objective). Code loading
must be accomplished in less than one
minute per device.
38. Possess embedded capability to            NO           YES           YES            YES
encrypt/decrypt or encode/decode
using National Security Agency
(NSA) approved techniques with
existing communication security
equipment (threshold) or
experimental techniques applicable to
NSA certification criteria (objective).
39. Include safeguards against use             NO          YES           YES            YES
through a single action to perform all
required zeroization or memory
destruction if captured by enemy
forces (threshold) or through an
automatic zeroing out or internal
meltdown if there is an attempt at
unauthorized removal (objective).
40. Incorporate modularity of major           NO            NO            NO            NO
functional elements (such as input,
output, SA and TI) to ensure
integration without duplication of
subsystems (threshold).
41. Provide visual and audible alarm          NO           YES           YES            YES
(selectable on/off) in the event of
abnormal power condition or
impending system failure (threshold).
42. For question and answer devices,          NO           YES           YES            YES
provide interrogated platform a visual
and audible warning that it is being
queried, with the option of selecting
indicator mode or deactivating the
warning. If a transponder is used,
the response must be encoded to
include the identification of the
interrogation signal it is responding to
(threshold).
43. Provide a selector capable of             NO           YES           YES            YES
turning system to off, respond only,
or inquire/respond (threshold).




                                                    39
             BCIS Requirements              Critical        Resourced     Developmental       Operational
                                           Operational       and or            Test              Test
                                             Issue           Funded
                                                                  32
 44. BCIS must be capable of                  NO              YES               YES           NO in Initial
 operating continuously 24 hours per                                                          Operational
 day with a Mean-Time Between                                                                    Test
 Failure of 1,242 hours (threshold)
 and 2,760 hours (objective).
 45. Organizational level repair Mean          NO              YES              YES               YES
 Corrective Maintenance Time must
 be no greater than 15 minutes and a
 Maximum Corrective Maintenance
 Time no greater than 60 minutes.
 The intermediate direct support level
 Maximum Corrective Maintenance
 Time must be no greater than
 30 minutes. Preventive maintenance
 will not exceed 5 minutes. The
 system must be supportable and
 repairable using standard tools and
 accessories in existence at the time of
 fielding and throughout its
 operational life.
 46. Must be resistant to shock and                   33       YES              YES               YES
                                              1.2.3
 vibration commensurate with other
 items located on the host platform.
 47. BCIS components mounted                          34       NO               YES               YES
                                              1.2.3
 externally on the host platform shall
 also be ballistic hardened
 commensurate with other external
 components (threshold).




32
  Product Manager, Combat Identification, has no research, development, testing and evaluation funds
forecasted beyond FY 2001 for increasing BCIS reliability via reliability growth testing strategy.
Reliability Development/Growth Testing is a systematic engineering process of test-analyze-fix-retest
where equipment is tested under actual, simulated, or accelerated environments. The objective of the
BCIS Reliability Development/Growth Test, scheduled from November 2000 to April 2001 (FY 2001), is
to obtain 70 percent confidence that reliability satisfies the ORD. The final results, according to Army
Test and Evaluation Command, will not be presented at the Military Deputy in-progress review, only
interim results.
33
 Critical Operational Issue Criterion 1.2.3 states that BCIS must resist ballistic impact, shock, and
vibration commensurate with other items similarly mounted on host platforms.
34
     See footnote 33.

                                                       40
          BCIS Requirements                  Critical        Resourced      Developmental       Operational
                                            Operational       and or             Test              Test
                                               Issue          Funded
                                                    35                                                     36
 48. No more detectable by threat             1.2.4            YES                YES                YES
 forces than existing systems on host
 platform (threshold).
 49. Must not enhance the enemy’s                     37        NO                NO                      38
                                              1.2.4                                                  NO
 ability to locate and detect friendly
 forces from either greater standoff
 ranges or by unique signatures that
 can be detected by enemy forces
 (objective).
 50. BCIS will not interfere with, nor          NO              YES               YES                YES
 be interfered by, other electronic
 equipment located on or near the host
 system (threshold).
 51. BCIS must be hardened against              NO              NO                NO                 NO
 directed energy (laser and radio
 frequency) weapons and
 countermeasures (objective).
 52. Protected against effects of               NO              YES               YES                YES
 Nuclear, Biological and Chemical
 contamination and decontamination
 agents.
 53. Resupply by personnel wearing              NO              YES               YES                YES
 Mission Oriented Protective Posture
 IV clothing (threshold).
 54. Include a Wartime Reserve                  NO              NO                NO                 NO
 Mode capability (objective).
 55. BCIS must not interfere with the           NO              YES               YES                YES
 ability of its host platform to be
 transported tactically or strategically
 using military or commercial modes
 (threshold).




35
  Critical Operational Issue Criterion 1.2.4 states that BCIS platform(s) must be no more
detectable/susceptible (vehicle–electronic signature, in signal saturated areas, and to electronic
countermeasures) than existing systems on host BCIS platforms.
36
 The Army will evaluate the BCIS against enemy sensors from April through May 2001, as well as
previous test results from earlier versions of the BCIS that the Army deems relevant to the current
version of the BCIS.
37
  Critical Operational Issue Criterion 1.2.4 states that BCIS platform(s) must be no more
detectable/susceptible (vehicle-electronic signature, in signal saturated areas, and to electronic
countermeasures) than existing systems on host BCIS platforms.
38
  The Army plans to use analysis to assess only whether BCIS equipped units are more detectable by
threat forces. Earlier independent testing evaluations determined that earlier configurations of the BCIS
were not detectable.

                                                       41
          BCIS Requirements                 Critical       Resourced      Developmental       Operational
                                           Operational      and or             Test              Test
                                             Issue          Funded
 56. BCIS or its components shall             NO             YES                NO               NO39
 be interoperable and/or compatible
 with other platforms for coalition
 use, using standard issue batteries
 when required (threshold).
 57. Crews will perform operator               NO             YES               YES               YES
 level maintenance.
 58. Organizational maintenance will           NO             YES               YES               YES
 be performed by organic maintainers.
 59. Direct support and depot                  NO             YES               YES               YES
 maintenance will be performed by
 electronic maintainers.
 60. Unit level maintenance will               NO             YES               YES               YES
 perform on-site repair by removal
 and replacement of Lowest
 Replaceable Unit.
 61. BCIS mid- and far-term will take                40        YES              YES               YES
                                             2.2.1
 place at Training and Doctrine
 Command schools with unit training
 programs providing a sustained base
 of knowledge. BCIS will be included
 in Conduct-Of-Fire Trainer training,
 aviation simulators, Simulation
 Network System, and will be utilized
 in major training events and field
 training exercises.
 62. BCIS will not present any                 NO             YES               YES               YES
 electrical, optical, or other types of
 hazards to humans.
 63. (Paragraph 5.d.) BCIS shall               NO             YES               YES               YES
 provide soldier-computer interfaces
 incorporating features which facilitate
 interactive operator control,
 information entry/output/display, an
 input validation and error checking.




39
  The BCIS has been demonstrated on other European tanks, but will not be operationally tested on an
allied platform.
40
 Critical Operational Issue Criterion 2.2.1 states that BCIS-equipped units and BCIS support units must
be capable of safely training personnel to perform all critical tasks in accordance with the Doctrinal and
Organizational Test Support Package and Training Test Support Package.

                                                      42
          BCIS Requirements                 Critical        Resourced      Developmental       Operational
                                           Operational       and or             Test              Test
                                             Issue           Funded
 64. BCIS processors should be based          NO               NO               YES                YES
 upon an open architecture to permit
 integration with other systems, such
 as position/navigation and SA devices
 and to readily accept upgrades.
 65. BCIS must have the ability to              NO             YES              YES                YES
 encrypt and decrypt interrogation and
 reply commands if used.
 66. Command, control, and                      NO             YES              YES               NO41
 communication networks will be
 required to disseminate SA
 information across the battlefield,
 including organizational boundaries.
 This will permit correlation of SA
 and TI.




41
  Product Manager, Combat Identification, stated that the Army will test BCIS for correlation of
situational awareness and target identification during the follow-on operational test and evaluation in
FY 2004. The Army has not outlined or planned for the proposed follow-on operational test and
evaluation in the approved or the draft TEMP.

                                                     43
Appendix E. Audit Response to Army Comments
            Concerning the Report
    Our detailed responses to the comments from the Deputy for Systems
    Management and Horizontal Technology Integration (the Deputy), Office of the
    Assistant Secretary of the Army (Acquisition, Logistics, and Technology), on
    statements in the draft report follow. The complete text of those comments is in
    the Management Comments section of this report.

Management Comments on the Overall Report and Audit
 Response
    Management Comments Addressing the Overall Report. The Deputy
    provided comments on the overall report and stated that the Army has a viable,
    deliberate acquisition strategy for BCIS authorized by the Army Systems
    Acquisition Review Council and the milestone decision authority and reviewed
    by the Defense Acquisition Executive. Further, the Deputy stated that the Army
    acquisition strategy is to conduct the initial operational test and evaluation
    during the summer of FY 2001 based on an updated, approved ORD and
    TEMP; to use the results of the initial operational test and evaluation to
    determine funding for the BCIS in the Program Objective Memorandum for
    FY 2004 through FY 2009, submitted in May 2002; and to conduct the full-rate
    production decision review in June 2002, based on the initial operational test
    and evaluation and available funding. The Deputy concluded that this strategy
    will enable a competitive acquisition phase for full-rate production.

    Audit Response. The Army Systems Acquisition Review Council and the
    milestone decision authority authorized the acquisition strategy for the BCIS
    after the Deputy Director, Army Program Analysis and Evaluation Directorate,
    stated that:

           •   the BCIS was unaffordable for low-rate initial production;

           •   he could not support incremental funding of the BCIS for only the
               4th Infantry Division; and

           •   the BCIS had a funding shortfall of $2 million for procurement of the
               low-rate initial production units from FY 2000 through FY 2002; a
               shortfall of $183 million for full-rate production from FY 2000
               through FY 2005; and a funding shortfall of $3.7 million from
               FY 2002 through FY 2005 for operations and maintenance, including
               reparables, consumables, post-production software support, and
               replacement training.

    The acquisition strategy that the Army Acquisition Executive presented to the
    Defense Acquisition Executive was for a three-phase procurement of
    1,169 BCIS units for the 4th Infantry Division without full funding for the Army
    procurement objective of 16,414 units. The Army Acquisition Executive told

                                       44
    the Defense Acquisition Executive about BCIS uncertainties with reliability and
    interaction with situation awareness and stated that, if the Army decided to
    increase the BCIS procurement, it would be with a restructured acquisition
    program baseline and adequate funding.

    The Army should not be using the results of the initial operational test and
    evaluation to determine funding. The purpose of initial operational test and
    evaluation is to determine whether systems are operationally effective and
    suitable for intended use by representative users to support the decision to
    proceed beyond low-rate initial production. Further, the acquisition strategy is
    not the roadmap to acquire program funding. As discussed in DoD
    Regulation 5000.2-R, the acquisition strategy is the roadmap for program
    execution from program initiation through post-production support and includes
    the critical events that govern the management of the program. The primary
    goal of the acquisition strategy is to minimize the time and cost of satisfying an
    identified, validated need consistent with common sense and sound business
    practices. The process for acquiring program funding is the planning,
    programming, and budget system.

    Concerning the full-rate production decision in June 2002, DoD
    Regulation 5000.2-R requires the milestone decision authority to assess
    affordability at each milestone decision point beginning with program initiation.
    Further, the Regulation requires that the milestone decision authority not
    approve an acquisition program to proceed beyond program initiation unless
    sufficient resources, including staffing, are programmed in the most recently
    approved Future Years Defense Program or will be programmed in the next
    Program Objectives Memorandum, Budget Estimate Submission, or President’s
    Budget. Therefore, the Army Acquisition Executive should not allow the BCIS
    to proceed into full-rate production unless the system is operationally effective
    and suitable, based on the initial operational test and evaluation results using an
    approved, updated ORD and TEMP, and fully funded for the Army
    procurement objective of 16,414 units to fully meet the user needs to minimize
    fratricide on the battlefield.

Management Comments on Finding A and Audit Response
    Management Comments Addressing the Overall Finding. The Deputy
    nonconcurred with the finding and commented on the viability of the acquisition
    strategy for the BCIS and the implementation of the third phase of low-rate
    initial production.

            Acquisition Strategy. The Deputy reiterated his comments to the
    overall report and disagreed that the Army did not have a viable acquisition
    strategy to acquire the BCIS at the completion of the engineering and
    manufacturing development phase. The Deputy stated that the Army had an
    approved acquisition strategy for the BCIS that is balanced, practical, and
    prudent considering the funding constraints, the need to validate the reliability of
    early production BCIS hardware, and the need to assess the operational
    contribution of BCIS to situational awareness. Further, the Deputy stated that,
    on July 30, 1999, the Army Acquisition Executive approved the BCIS

                                        45
acquisition strategy that details the schedules, contracting plans, testing plans,
and milestone decision reviews required to enable the BCIS to proceed from the
engineering and manufacturing development phase through the full-rate
production and pre-planned product improvement phases. He stated that the
program funding shows a deliberate decision by the Army to procure BCIS
initially to equip only the 4th Infantry Division at Fort Hood, Texas. The
Deputy continued by reiterating the following statements that we made in the
finding.

       •   the Army Systems Acquisition Review Council review of the BCIS
           for low-rate initial production;

       •   the three-phased approach for low-rate initial production to equip the
           4th Infantry Division;
       •   the acquisition decision memorandum authorizing the award of
           low-rate initial production contracts for first phase in FY 1999 and
           the second phase in FY 2000;

       •   the in-process review and associated requirements, including system
           performance and reliability ; and

       •   the letter to the Under Secretary of Defense for Acquisition,
           Technology, and Logistics, explaining the Army’s rationale for
           limiting procurement of the BCIS to the 4th Infantry Division.

Further, the Deputy stated that the Army was continuing to execute the program
that the Army Systems Acquisition Review Council and the Army Acquisition
Executive authorized. He stated that the Army plans to complete final testing of
system reliability and initial operational test and evaluation in the summer of
2001. Plans also include a production commitment decision in the third quarter
of FY 2002 to support a competitive acquisition phase for full-rate production.
The Deputy concluded that this approach allows the Army to effect funding for
FY 2004 and beyond to support a rationalized full-rate production program.

       Audit Response. Without determining whether BCIS is affordable and
having a commitment from the Army to fully fund the BCIS, the Army will
have expended additional funds with no assurance the program will receive full
funding. If the Army later determines that the program is unaffordable, the
Army will have squandered scarce resources.

         Third Phase of Low-Rate Initial Production. The Deputy stated that
the Army considered that a delay in implementing the third phase of the low-rate
initial production would be unnecessary in view of the decisions and actions by
the Army Systems Acquisition Review Council and the Army Acquisition
Executive; therefore, the Military Deputy to the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) convened the in-process review on
February 20, 2001. Further, the Deputy stated that, based on the presentations
by the Product Manager, Combat Identification, and the representatives from
the user community, the independent test community, the training community,
the program offices for major platforms that will receive the BCIS, and the
unanimous recommendation by the Army Headquarters Overarching Integrated

                                    46
    Product Team, the Military Deputy concluded that the BCIS had met the
    requirements for the in-process review. He also granted approval for the BCIS
    to implement the third phase of low-rate initial production after the reliability
    development growth test that was in process was completed.

             Audit Response. Without an updated and approved TEMP and ORD to
    verify BCIS system performance and reliability, and without completing the
    reliability development growth test and obtaining the results, we question how
    the attendees at the in-process review concluded that the BCIS had met the
    requirements; for example, one of the requirements is to verify whether the
    BCIS meets system performance and reliability requirements. Further, the
    Military Deputy should not have approved entrance into the third phase of the
    low-rate initial production until the Army programmed full funding, as required
    by DoD Regulation 5000.2-R and Army Pamphlet 70-3.

Management Comments on Finding B and Audit Response
    Management Comments Addressing the Overall Finding. The Deputy
    concurred with the finding and commented on the TEMP approval, the lack of
    environmental testing, and the risk of producing a system that will not meet user
    needs.

            TEMP Approval. The Deputy agreed that the approved TEMP was the
    1993 version developed for the milestone decision review to approve the BCIS
    entering engineering and manufacturing development. The Deputy
    acknowledged that the TEMP should be updated to incorporate changes in the
    BCIS since 1993 and to comply with policy changes that have already occurred.
    Further, the Deputy stated that a BCIS Test Working-Level Integrated Product
    Team began work in the second quarter of FY 1999 to complete the BCIS test
    program and to update the TEMP, which the Army will complete and approve
    in early July 2001, before the initial operational test and evaluation begins in the
    fourth quarter of FY 2001. The Deputy concluded that the test program in the
    updated TEMP will enable the independent tester to address BCIS operational
    requirements and assess the system’s suitability, effectiveness, and survivability.

           Audit Response. We updated the report to show the revised dates for
    approving the TEMP and for conducting the initial operational test and
    evaluation.

             Environmental Testing. The Deputy commented on the lack of
    environmental testing by stating that the Army will rely on data from
    developmental tests performed over the life of the program, including verifying
    production hardware performance in environmental extremes during the
    reliability development growth test, as well as supplemental modeling and
    simulation.

            Audit Response. The BCIS goal is to reduce the risk of fratricide by
    identifying BCIS-equipped targets under all battlefield conditions, including
    degraded environmental conditions, such as smoke, darkness, rain, dust and
    fog. In FY 2001, under Army Test and Evaluation Command oversight, the

                                         47
contractor will conduct developmental testing of a BCIS production prototype to
evaluate BCIS performance in cold climates; however, the Army does not plan
to conduct operational testing of a production prototype in a cold climate.
Further, according to the Product Manager, the Army will operationally test
BCIS only in the basic to hot climates under dusty and clear conditions. None
of the developmental or operational tests will test the BCIS in fog, snow, or
rain. Consequently, the Army Test and Evaluation Command plans to use a
model to simulate fog, snow, and rain to evaluate BCIS capabilities in those
environments. If the Army does not operationally test the BCIS in fog, snow,
or rain before entering full-rate production, it cannot be assured that it is
fielding a system that fully meets user needs to reduce fratricide. If later tests
and actual combat applications show that BCIS production units are not effective
in those environments, the Army will have to obtain additional scarce Army
funds to modify the production units to correct those limitations.
        User Needs. The Deputy stated that, given the closeness to completion,
the Army disagrees that an increased risk exists in producing a system that will
not fully meet user needs because of the lack of an updated TEMP and ORD.
Further, the Deputy stated that the updated TEMP is near approval and that the
Army Training and Doctrine Command (TRADOC) has updated the ORD with
Army approval expected in April 2001. The Deputy also stated that the Army is
satisfied that the requirements in the updated ORD and the test program in the
updated TEMP will provide the testers with an adequate basis for determining
whether the production hardware fully meets user needs. Further, the Deputy
stated that BCIS performance, except for reliability, has never been an issue; it
was always as good or better than the ORD requirement. The Deputy
concluded that the Army has substantiated the reliability or the mean-time
between failure of the stable BCIS configuration in demonstrations and tests,
culminating in the reliability development growth test, which concludes in
March 2001.

         Audit Response. Even though approval of the updated ORD and TEMP
may be imminent, that does not mean that previous tests, including the
reliability development growth test, based on the 1993 versions of the ORD and
TEMP meet the operational requirements of the updated ORD and TEMP.
Further, we question how the BCIS performance has never been an issue after
considering the following concerns:

       •   The April 1993 ORD did not contain key performance parameters
           and the Director for Command, Control, Communications, and
           Computers and the Director, Defense Information Systems Agency,
           identified deficiencies in the defined interoperability requirements for
           use in determining system performance through testing.

       •   The Army did not plan a joint operational test to ensure that the BCIS
           was compatible with Air Force, Navy, Marine Corps, and allied
           vehicle platforms. Instead, the Army planned to conduct a
           force-on-force evaluation simulation using the Combined Arms and
           Support Task Force Evaluation model to determine ground-vehicle
           fratricide rates. This model will simulate warfighting scenarios for
           ground forces; however, the TEMP does not describe the scenarios
           involving the BCIS.

                                    48
•   The Army does not plan to operationally test the BCIS with the
    Force XXI Battle Command Battalion/Brigade and Below System
    until FY 2004 to determine whether they work in concert to reduce
    fratricide. Further, the ORD and the C4I Support Plan require that
    the BCIS be able to provide target identification information to
    situational awareness systems. The Product Manager funded efforts
    to develop a link between the BCIS and the Force XXI Battle
    Command Battalion/Brigade and Below System situational awareness
    system. However, the planned initial operational test and evaluation
    in the fourth quarter of FY 2001 will not test or evaluate the link to
    determine how effectively the BCIS passes target identification data
    to the Force XXI Battle Command Battalion/Brigade and Below
    System. Instead, the Product Manager, Combat Identification, plans
    to rely on a follow-on operational test and evaluation in FY 2004,
    funded by the Army Test and Evaluation Command, to determine
    whether the BCIS and the Force XXI Battle Command
    Battalion/Brigade and Below System work in concert to reduce
    fratricide.

•   Under Army Test and Evaluation Command oversight, the contractor
    will conduct developmental testing of a BCIS production prototype to
    evaluate BCIS performance in cold climates in FY 2001; however,
    the Army does not plan to conduct operational testing of a production
    prototype in a cold climate. Further, according to the Product
    Manager, the Army will only operationally test BCIS in the basic to
    hot climates under dusty and clear conditions. None of these
    developmental or operational tests will test the BCIS in fog, snow, or
    rain. Consequently, the Army Test and Evaluation Command plans
    to use a model to simulate fog, snow, and rain to evaluate BCIS
    capabilities in those environments.

•   During the initial operational test and evaluation, the Army will limit
    the BCIS operational test to using only Abrams Tanks and Bradley
    Fighting Vehicles as host vehicles against gunnery range target
    silhouettes, with BCIS bolted on to both the host vehicles and target
    silhouettes. Additionally, during the developmental test in FY 2001,
    the Army will conduct a product verification test using the High
    Mobility Multipurpose Wheeled Vehicle for reliability data. The
    Army has more than 20 different vehicle platforms that will host the
    BCIS. Operational testing on only two platforms, the Abrams Tank
    and the Bradley Fighting Vehicle, and developmental testing using
    the High Mobility Multipurpose Wheeled Vehicle will not
    realistically represent the battlefield environment. Therefore, the
    Army will have incomplete test results concerning the utility of the
    BCIS on all vehicles in an Army division before the planned
    production decision.

•   The Army Acquisition Executive expressed concern over the
    uncertainties about BCIS reliability and interaction with situational
    awareness in his letter to the Defense Acquisition Executive (see
    Appendix C).


                             49
    Concerning reliability or the mean-time between failure, the Army had not
    substantiated through operational testing BCIS reliability and supportability to
    meet the current requirement to operate continuously for 24 hours per day, with
    a threshold mean-time between failure rate of 1,242 hours. As of March 2001,
    the Army was conducting reliability growth testing at the contractor’s facility to
    test BCIS reliability in a laboratory environment. Direct comparisons of how
    BCIS performs in an operational environment may greatly differ.

Management Comments Addressing the Main Body of the
 Report and Audit Response
    Management Comments Addressing the Main Body of the Report. The
    Deputy provided additional facts and clarifications on addressing the
    background; full funding for the program; ORD key performance parameters;
    ORD certification for interoperability; planned operational tests to address all
    BCIS operational requirements; realistic testing of operational requirements;
    platform vulnerability to detection; situational awareness linkage; Appendix D,
    BCIS Operational Requirements 2, 3, 5, 7, 16, 23, 24, 30, 37, 44; and
    Appendix D, Footnote 51.

           Background. The Deputy provided additional background information
    describing how the BCIS operates.

          Audit Response. We revised the report to include the additional
    background information.

            Full Funding. The Deputy recommended removal of the statement
    “without requiring the Product Manager to obtain full funding for the program”
    from the report because prioritization and funding decisions for Army
    acquisition programs are under the purview of Army Headquarters staff. The
    Deputy stated that the Product Manager has consistently requested full funding
    for the BCIS; however, the Army has not approved full funding to date.

           Audit Response. We revised the report to state, “without ensuring that
    the Army had fully funded the program.”

            ORD Update. The Deputy did not agree that the TRADOC System
    Manager failed to update the ORD in accordance with new guidance requiring
    key performance parameters. The Deputy stated that the Army issued policy
    guidance for this requirement effective June 2000. Further, he stated that the
    TRADOC System Manager updated the ORD, to include the key performance
    parameters and cost data, on December 26, 2000, and that he expected approval
    of the ORD by April 2001.

            Audit Response. We agree that the Army took action to update the
    ORD; however, the ORD was still in draft and not approved. The Director for
    Command, Control, Communications, and Computers (J-6), and the Director,
    Defense Information Systems Agency, had substantial comments on corrections
    that the TRADOC System Manager must complete before the Directors certify
    the ORD for Army approval. Unless the BCIS operational testers use the draft

                                        50
updated ORD, which has key performance parameters, the operational tests will
not test against any key performance parameter because the 1993-approved
ORD did not contain key performance parameters.

        ORD Certification. The Deputy agreed that the Director for Command,
Control, Communications, and Computers (J-6), has yet to certify the ORD for
interoperability. However, the Deputy stated that the report should indicate that
the updated ORD includes an interoperability key performance parameter and
that the TRADOC System Manager has taken action to achieve the required J-6
certification.

        Audit Response. The issue was not just that the Director for Command,
Control, Communications, and Computers (J-6) had not yet certified the ORD
for interoperability and that the TRADOC System Manager had not taken action
to achieve the required J-6 certification, but that the operational testers must test
and evaluate the BCIS against the key performance parameters in the updated
ORD to assess the system’s suitability and effectiveness. As of March 2001, the
Director for Command, Control, Communications, and Computers (J-6), and
the Director, Defense Information Systems Agency, had yet to receive
corrections from the TRADOC System Manager in order for the Directors to
certify the ORD for interoperability. However, if the Army does not obtain an
updated and approved ORD and TEMP before the initial operational test and
evaluation in the fourth quarter of FY 2001, the BCIS testers cannot test and
evaluate the system using updated operational requirements to ensure that BCIS
fully meets user needs.

        Planned Operational Tests. The Deputy stated that the report
incorrectly stated that, “The BCIS Product Manager did not ensure that planned
operational tests addressed all BCIS operational requirements. Specifically,
planned tests did not address requirements for operating in all environments,
Service compatibility, system reliability and supportability, platform
vulnerability to detection, and situational awareness linkage.” Further, the
Deputy stated that the Product Manager, Combat Identification, had consistently
worked closely with the BCIS testers to ensure a comprehensive operational test
and that the Army Test and Evaluation Command was responsible for decisions
concerning the scope of the operational testing, the test methodology, and
assessment of the test results. The Deputy also stated that the Army was
satisfied that the BCIS test strategy, which the BCIS Test Working-Level
Integrated Product Team developed, will adequately address the concerns noted
in the audit report.

       Audit Response. As of March 2001, the Army still did not plan to
operationally test the BCIS in the following areas:

       •   linkage to situational awareness, which the Army has maintained is
           an element necessary to reduce fratricide;

       •   cold, fog, snow, and cold environments. The Deputy stated that the
           Army is relying on developmental tests and supplemental modeling
           and simulation data;

       •   interoperability with other Service or allied platforms; and

                                     51
                •    reliability and supportability will not be tested to the BCIS
                     requirement of operating continuously 24 hours per day, with a
                     threshold mean-time between failure rate of 1,242 hours. Reliability
                     had only been tested in a technical environment as of March 2001.

        Therefore, direct comparisons of how the BCIS performs in an operational
        environment may greatly differ. Additionally, the Army has not adequately
        determined how it will logistically support the BCIS in the field. The logistic
        support concept in the 1993 ORD was for BCIS components to be directly
        exchanged from the contractor to the platform. Based on the threshold
        reliability requirement in the approved 1993 ORD, the BCIS will fail after about
        52 days of operation,* when the system reliability is at 100 percent of the
        requirement. Consequently, the Army should have a supply of spare
        components dedicated as replacements for failed components. The Product
        Manager, Combat Identification, had not budgeted for the procurement of
        components as spares in out-year budget requests.

                Realistic Testing. The Deputy did not agree with the conclusion that
        testing will not be representative of the battlefield environment. The Deputy
        stated that the Abrams Tank and Bradley Fighting Vehicle, or their variants,
        constitute the majority of the combat-shooter platforms scheduled to be equipped
        with the BCIS. Further, the Deputy stated that the High Mobility Multipurpose
        Wheeled Vehicle and its variants comprise the remainder of the shooter systems
        and a significant portion of the non-shooter platforms to be equipped with BCIS.
        The Deputy also stated that resource constraints make it cost prohibitive to
        operationally test BCIS on every variant of every host platform before
        production.

                Audit Response. In the1993 ORD, the combat developer’s
        requirements were clear about interoperability and compatibility, noting that,
        “This is a critical characteristic because of the need to provide our warfighting
        allies with a device that will reduce the risk of fratricide between U.S. and allied
        forces.” The 1993 ORD also stated that, “The modern battlefield requires a
        device which requires the capability to positively identify friendly forces among
        a mix of allied, coalition, and U.S. units at distances beyond a system’s
        maximum effective range.” The resulting 1993 TEMP addressed resources for
        multi-platforms to evaluate the BCIS effectiveness in reducing fratricide that
        included many vehicles, including rotary-winged platforms, to host the BCIS.

        In the fourth quarter of FY 2001, the Army plans to install and operationally
        test BCIS on Abrams tanks, the Bradley Fighting vehicles, and the High
        Mobility Multipurpose Wheeled Vehicles and their variants; however, the Army
        plans only to install and not operationally test BCIS on other platforms such as
        the artillery, engineer, and new interim armored vehicles. The Army should

*
 We calculated the 52 days by dividing 1,242 hours by 24 hours of continuous operation. The Product
Manager stated that the BCIS is expected to support the ORD at the 70 percent confidence level.
Therefore, the mean-time between failure occurring will be more often than 52 days. The Army strategy
is to improve reliability over time; however, the Army does not have research, development, test, and
evaluation funds to improve the system’s reliability. System reliability becomes more critical if the
Army decides that the BCIS is a mission-essential item. The approved ORD states that BCIS is not
mission essential; therefore, system replacement will not be a priority.

                                                 52
include those platforms in the initial operational test and evaluation in the
fourth quarter of FY 2001 to ensure that all vehicles equipped with the BCIS
system configuration provide 360-degree coverage. Furthermore, BCIS does
not provide the optimum solution envisioned by the 1993 ORD. The result of
the downsized test and not addressing all the requirements is the “getting
something is better than nothing” philosophy to the warfighter, which has
unknown consequences for how the system interacts with all vehicles in
battlefield conditions.

Further, the BCIS will not resolve the kinds of fratricide incidents that occurred
in Operation Desert Storm in 1991 between friendly units and with rotary-wing
platforms and allied troops because:

       •   the Army plans to procure only 1,169 BCIS units for selective
           vehicles in the 4th Infantry Division instead of the Army
           procurement objective of 16,414 BCIS units, and

       •   the BCIS will not operate with rotary-wing platforms, such as the
           Apache helicopter, and with allied identification systems.

       Platform Vulnerability. The Deputy recommended that the report
paragraph addressing Army Test and Evaluation Command actions on platform
vulnerability to detection be revised to read, “Under the current test strategy,
U.S. Army Test and Evaluation Command plans to evaluate the potential
increase in BCIS-equipped platforms to detection by enemy sensors. The
evaluation will be based on analysis by the Survivability Lethality Analysis
Directorate (SLAD) of results from planned vulnerability tests on the BCIS in
the April-May 2001 timeframe, as well as previous test results from the earlier
version of BCIS that are deemed relevant to the current version.”

      Audit Response. We revised the report concerning “Platform
Vulnerability to Detection” as suggested.

       Situational Awareness Linkage. The Deputy recommended that the
statement concerning situational awareness be deleted, stating that BCIS
interoperability with situational awareness is an objective requirement in the
updated ORD and is not an issue for the in-process review or the full-rate
production decision.

        Audit Response. Until the Army approves the updated ORD and
operationally tests the BCIS with the Force XXI Battle Command
Battalion/Brigade and Below System to determine whether they work in concert
to reduce fratricide, the situational awareness issue is still a concern. The
Military Deputy to the Army Acquisition Executive testified twice before
Congress on the issue of situational awareness; on both occasions, he stated that
the Army was working hard on the situational awareness problem. If BCIS
interoperability with situational awareness is now an objective requirement, the
Army must specify how it will operationally test the BCIS to ensure that it is
interoperable with other target identification systems to fix historic fratricide
problems, such as air-to-ground incidents. Therefore, until different



                                    53
technologies are available to enable the BCIS to be interoperable between
platforms, the warfighter can expect fratricide to occur in a joint operational
environment.

       BCIS Operational Requirement 2. The Deputy recommended that
Appendix D, Requirement 2, be changed to read “Yes” in the Resourced and
Operational Test columns because the Army designed the current version of the
BCIS for ground-to-ground, mounted operations only and will fully test that
version against Requirement 2. Further, the Deputy stated that the Army was
addressing the dismounted combat identification requirements and that the user
was studying the rotary wing combat identification requirements.

        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.
        BCIS Operational Requirement 3. The Deputy recommended that
Appendix D, Requirement 3, be changed to read “Partial” in the Operational
Test column. The Deputy stated that, during the initial operational test and
evaluation and the follow-on operational test and evaluation, the Army will test
representative and relevant military operations. However, the Deputy
concluded that no feasible operational test could cover the entire “continuum of
military operations.”

        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

       BCIS Operational Requirement 5. The Deputy recommended that
Appendix D, Requirement 5, be changed to read “Not Applicable” in the
Operational Test column because the Army never envisioned the initial version
of BCIS to be a far-term solution.

        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

        BCIS Operational Requirement 7. The Deputy recommended that the
footnote concerning the operation test in Appendix D, Requirement 7, be
changed to read, “There are no production combat identification systems from
allies available for operational test. However, ATEC [the Army Test and
Evaluation Command] plans to use realistic target silhouettes to test whether the
BCIS will reduce fratricides in coalition warfare, especially involving
non-traditional allies who may have equipment usually associated with hostile
forces.”

         Audit Response. Using silhouettes does not address whether the BCIS
technology is compatible with allied combat identification systems. Instead, the
use of silhouettes tests only whether the operators can visually identify the
targets and whether the BCIS transponder on the silhouette communicates with
other transponders. Such a configuration does not assess the millimeter wave
technology difference between the Army BCIS system and allied systems. The
Army knows that the initial BCIS configuration is not interoperable with the
allies’ systems.


                                    54
        BCIS Operational Requirement 16. The Deputy recommended that
Appendix D, Requirement 16, be changed to read “Yes” in the Operational Test
column because the Army designed the initial BCIS configuration to attain a
minimum of 90 percent probability of correct identification for
ground-to-ground operations and will test to that criterion during initial
operational test and evaluation. The Deputy stated that the Army will
operationally test the objective requirement of 99 percent probability of correct
identification in a follow-on test if it decides to make that requirement part of a
BCIS pre-planned product improvement or block upgrade effort. Further, the
Deputy stated that the part of the requirement relating to dismounted operations,
and operations involving friendly fixed-wing aircraft and the identification of
enemy, neutrals, and noncombatants, does not apply to the initial BCIS
configuration.
        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

        BCIS Operational Requirement 23. The Deputy recommended that
Appendix D, Requirement 23, be changed to read “Not Applicable” in the
Resourced, the Developmental Test, and the Operational Test columns because
this requirement applies to the Individual Combat Identification System that the
Army developed under a separate ORD.

        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

        BCIS Operational Requirement 24. The Deputy recommended that
Appendix D, Requirement 24, be changed to read “Not Applicable” in the
Resourced, the Developmental Test, and the Operational Test columns because
this requirement applies to a rotary wing-to-ground combat identification
mission area and because the Army will address this requirement when it
develops an ORD for that mission area.

        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

        BCIS Operational Requirement 30. The Deputy recommended that
Appendix D, Requirement 30, be changed to read “Not Applicable” in the
Resourced, the Developmental Test, and the Operational Test columns because
this requirement applies to the Individual Combat Identification System that the
Army developed under a separate ORD.

        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

        BCIS Operational Requirement 37. The Deputy recommended that
Appendix D, Requirement 37, add a footnote to the Operational Test column to
indicate that this requirement is an objective requirement, which the Army will
operationally test in a follow-on test if the Army decides to make that a
requirement as part of a pre-planned product improvement or a block upgrade
effort.


                                    55
        Audit Response. Until the Army approves an updated ORD, the report
is correct based on the April 1993 version of the ORD.

       BCIS Operational Requirement 44. The Deputy recommended that
Appendix D, Requirement 44, be changed to read “Yes” in the Operational Test
column and that statements in the Operational Test column be deleted. The
Deputy recommended the change because the production verification test
included in the operational test is inappropriate because:

       •   the production verification test is developmental testing, and

       •   the comment in the report, which indicates that the Army will not
           collect reliability, availability, and maintainability data in the initial
           operational test and evaluation, was inaccurate.
Further, the Deputy stated that the Army plans to collect data on reliability,
availability, and maintainability during the initial operational test and evaluation.

       Audit Response. We revised Operational Test column in the report to
state “No in Initial Operation Test” because the Army will not fully test the
requirement, as discussed in the Deputy’s comments.

       Footnote 51. The Deputy recommended that Appendix D, Footnote 51
(renumbered as Footnote 37 in final report), be revised in accordance with his
comments concerning situational awareness linkage. In those comments, the
Deputy recommended that the statement concerning situational awareness in the
report be deleted, stating that BCIS interoperability with situational awareness is
an objective requirement in the updated ORD and is not an issue for the
in-process review or the full-rate production decision.

        Audit Response. The footnote addresses host platform vulnerability, not
situational awareness linkage. However, based on the Deputy’s comments
concerning platform vulnerability, we revised the footnote from “NO” to
“YES” and stated that the Army will evaluate the BCIS against enemy sensors
from April through May 2001, and evaluate previous test results from earlier
versions of the BCIS that the Army deems relevant to the initial version of the
BCIS.




                                     56
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Director, Operational Test and Evaluation
  Deputy Director, Conventional Systems
  Deputy Director, Strategic and Command, Control, Communications, and
      Intelligence Systems

Joint Staff
Director, Joint Staff
  Director for Command, Control, Communications, and Computers Systems

Department of the Army
Commander, Army Training and Doctrine Command
   Training and Doctrine Command System Manager, Battlefield Combat Identification
      System
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
   Program Executive Officer, Intelligence, Electronic Warfare, and Sensors
      Product Manager, Combat Identification
Assistant Secretary of the Army (Financial Management and Comptroller)
   Director, Army Cost and Economic Analysis Center
Director of the Army Staff
   Deputy Director, Army Program Analysis and Evaluation Directorate
Deputy Chief of Staff for Operations and Plans
Auditor General, Department of the Army
Commander, Army Test and Evaluation Command
   Commander, Army Evaluation Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

                                          57
Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency
   Commander, Joint Interoperability and Engineering Organization

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         58
___________________________________________________________________


Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                             59
               ___________________________________________________________________




Final Report
 Reference




Page 9,
Redirected




Page 18




Page 19




                                            60
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 20




                             61
___________________________________________________________________


Director, Operational Test and Evaluation,
Comments




                             62
___________________________________________________________________


Department of the Army Comments




                             63
___________________________________________________________________




                             64
___________________________________________________________________




                             65
               ___________________________________________________________________




Final Report
 Reference




Page 1,
Revised




Page 3,
Revised




Page 11




Page 11




                                            66
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 11




                                                                      Page 16




                                                                      Page 17,
                                                                      Revised




                                                                      Page 17,
                                                                      Revised



                                                                      Page 33




                                                                      Page 33




                             67
               ___________________________________________________________________




Final Report
 Reference




Page 33



Page 34




Page 35




Page 36



Page 37




Page 38



Page 39



Page 40,
Revised




                                            68
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 41




                             69
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

     Thomas F. Gimble
     Mary L. Ugone
     John E. Meling
     Jack D. Snider
     Susan J. Lippolis
     Mark E. Stephens
     Kimberly L. Prioleau
     Jacqueline N. Pugh
